APPENDIX

2a

APPENDIX A
956 F.3d 1319
United States Court of Appeals, Eleventh Circuit.
CITY OF MIAMI GARDENS, a Florida municipal
corporation, Plaintiff - Appellant,
v. WELLS FARGO & CO., Wells Fargo Bank N.A.,
Defendants - Appellees.
No. 18-13152-AA
|
04/27/2020
Attorneys and Law Firms
Robert S. Peck, Center for Constitutional Litigation,
PC, Washington, DC, Christina M. Black, Patrick F.
Madden, Russell D. Paul, Sherrie R. Savett, Sarah R.
Schalman-Bergen, Berger & Montague, PC,
Philadelphia, PA, Kelly Dermody, Rachel Geman,
Lieff Cabraser Heimann & Bernstein, LLP, Yosef
Peretz, Peretz & Associates, San Francisco, CA, Sonja
K. Dickens, City of Miami Gardens, Miami Gardens,
FL, D. Porpoise Evans, Joshua Byrne Spector,
Perlman Bajandas Yevoli & Albright, PL, Coral
Gables, FL, Joel Liberson, Trial & Appellate
Resources, PC, El Segundo, CA, John T. Nicolaou,
Daniel E. Seltz, Lieff Cabraser Heimann & Bernstein,
LLP, New York, NY, for Plaintiff-Appellant.
Paul Francis Hancock, Olivia Waters Kelman, K&L
Gates, LLP, Carol Ann Licko, John F. O’Sullivan,
James Leo VanLandingham, Hogan Lovells US, LLP,
Clayton P. Solomon, Stroock & Stroock & Lavan, LLP,
Miami, FL, Andrew C. Glass, K&L Gates, LLP,

3a

Boston, MA, Dwayne Antonio Robinson, Kozyak
Tropin & Throckmorton, PA, Coral Gables, FL,
Defendants-Appellees.
Appeals from the United States District Court for the
Southern District of Florida
BEFORE WILSON, Acting Chief Judge, WILLIAM
PRYOR, MARTIN, JORDAN, ROSENBAUM, JILL
PRYOR, NEWSOM, BRANCH, GRANT, and LUCK,
Circuit Judges.*
BY THE COURT:
The Court having been polled at the request of one of
the members of the Court and a majority of the Circuit
Judges who are in regular active service having voted
against it (Rule 35, Federal Rules of Appellate
Procedure), the Petition for Rehearing En Banc is
DENIED.
Opinion
WILLIAM PRYOR, Circuit Judge, joined by
NEWSOM and BRANCH, Circuit Judges, respecting
the denial of rehearing en banc:
A majority of the Court has voted not to rehear en
banc our decision in City of Miami Gardens v. Wells
Fargo & Co., 931 F.3d 1274 (11th Cir. 2019), which
held that the City of Miami Gardens lacked standing
to bring its lawsuit under the Fair Housing Act
against Wells Fargo. Id. at 1277–78. As members of
the panel, we write to explain why our decision
adheres to both Supreme Court and our precedent and

4a

to respond to Judge Wilson’s dissenting opinion.
It is well established that the City, as the party
invoking federal jurisdiction, bore the burden of
establishing standing. Lujan v. Defs. of Wildlife, 504
U.S. 555, 561, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992).
And that burden increased with the successive stages
of litigation: although mere allegations sufficed at the
pleading stage, actual evidence was required to
withstand summary judgment. Id.
In addition, federal courts always have “an
independent obligation to assure that standing
exists.” Summers v. Earth Island Inst., 555 U.S. 488,
499, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009). To be sure,
the Supreme Court has explained that, in limited
circumstances, “elementary principles of procedural
fairness” mandate that a court provide the party with
“an opportunity to provide evidence of [its standing]”
instead of sua sponte dismissing the action for lack of
jurisdiction. Ala. Legislative Black Caucus v.
Alabama, 575 U.S. 254, 271, 135 S.Ct. 1257, 191
L.Ed.2d 314 (2015). And our Court has held that the
absence of notice of the need to prove standing may
sometimes mandate the application of a more lenient
standard for assessing standing. Church v. City of
Huntsville, 30 F.3d 1332, 1336 (11th Cir. 1994).
Our decision adhered to these principles. The City
failed to satisfy its burden of establishing standing.
And we respected the concerns of fairness and notice
demanded by precedent.
The City faced an uphill battle to establish its
standing because it relied on an attenuated theory of

5a

injury. Its principal theory was that Wells Fargo
steered minority borrowers into higher-cost loans that
were more likely to go into foreclosure. These
foreclosures then allegedly decreased the value of the
vacant properties and neighboring properties, which
allegedly caused economic injury to the City because
property tax revenues decreased and its spending “to
remedy blight and unsafe and dangerous conditions”
increased. Miami Gardens, 931 F.3d at 1278–79. To
establish its standing, the City needed to prove that
at least one of the purportedly discriminatory loans
caused or would cause it to suffer a de facto injury that
a favorable decision could redress. Id. at 1283.
In addition to standing, the City faced another hurdle:
the statute of limitations. The City’s complaint largely
focused on purportedly discriminatory lending
practices outside the applicable two-year limitations
period. See 42 U.S.C. § 3613(a)(1)(A). But the City
contended that all of Wells Fargo’s alleged violations
were actionable under the continuing-violation
doctrine, which makes violations outside the
limitations period actionable if the defendant engaged
in “an unlawful practice that continue[d] into the
limitations period ... [and] the last asserted occurrence
of that practice” was within the limitations period.
Havens Realty Corp. v. Coleman, 455 U.S. 363, 380–
81, 102 S.Ct. 1114, 71 L.Ed.2d 214 (1982) (footnote
omitted). If the City could not establish a violation of
the Act during the limitations period, its complaint
would be untimely.
Wells Fargo moved to limit initial discovery to the
threshold question whether the City’s complaint was
timely. The City objected to that motion on the

6a

grounds that it would prevent it from “prov[ing] its
continuing
violations
and
disparate
impact
allegations.” The district court limited initial
discovery to loans issued during the limitations period
and later granted Wells Fargo’s motion for summary
judgment on the ground that the City had failed to
establish that Wells Fargo violated the Act within the
limitations period.
The focus on the limitations period in the district court
does not mean that the parties ignored standing. To
the contrary, Wells Fargo raised Article III standing
“during the meet and confer process,” in its answer to
the operative complaint, and in its motion for
summary judgment. In the motion for summary
judgment, Wells Fargo recited the City’s attenuated
theory of standing and argued that, because the
litigation was at the summary judgment stage, the
City needed to “actually produce some evidence that
[it], and not just the borrower, ha[d] Article III
standing to sustain a claim under the Fair Housing
Act.” Wells Fargo contended that the City lacked
standing because it failed to establish that it suffered
an injury from a loan issued during the limitations
period. That argument was mistaken because a
discriminatory loan issued at any point could have
established the City’s Article III standing.
Nevertheless, Wells Fargo repeatedly contended that
the injury and causation elements of standing were
lacking.
The district court also considered the City’s standing.
It dismissed the City’s initial complaint with a
warning that any amended complaint would need to
“allege ... the facts that confer standing to complain

7a

about private home foreclosures, the specific injury to
the [City], the precise number and dates of
foreclosures, and the specific costs to the City of
Miami Gardens.” It even explained what the City
would need to allege to satisfy each element of
standing: “(1) how Miami Gardens is injured, (2) how
that injury is traceable to the conduct of each Wells
Fargo defendant, and (3) how the injury can be
redressed with a favorable decision in this case.”
The City modeled its complaint after allegations in
similar litigation that we held met the requirements
of Article III standing. See City of Miami v. Bank of
Am. Corp., 800 F.3d 1262, 1272–73 (11th Cir. 2015),
vacated and remanded on other grounds, ––– U.S. ––
––, 137 S. Ct. 1296, 197 L.Ed.2d 678 (2017). But, as
the Supreme Court has made clear, mere allegations
are insufficient as the litigation progresses. See Lujan,
504 U.S. at 561, 112 S.Ct. 2130. To this end, the
district court had told the City to read City of Miami,
800 F.3d at 1273, which expressly warned Miami that
it would need to prove its allegations as the litigation
progressed—a task that we predicted might be
“difficult.” Id.
On appeal, Wells Fargo again argued in its brief that
the City had failed to establish that it suffered an
injury as a result of any loan issued during the
limitations period. We then asked the parties to
address standing at oral argument, and they did so.
The City pointed to two kinds of evidence to establish
its standing. First, it pointed to an allegedly
discriminatory loan, HC2, that “has been delinquent
since it was issued,” unlike a purportedly comparable

8a

loan issued to a nonminority borrower. Miami
Gardens, 931 F.3d at 1283. The City contended that
the delinquent loan “will likely go into foreclosure and
cause the City to suffer the kind of economic injuries
asserted in the operative complaint.” Id. Second, it
pointed to ten loans issued before the limitations
period that have gone into foreclosure and argued that
those loans have led to the economic injuries identified
in the complaint. Id.
This evidence failed to satisfy either the injury or
causation requirements of standing. See id. at 1283–
84. As to loan HC2, we were left only to speculate
whether its delinquency will lead to foreclosure, and if
so, whether that foreclosure will impact property
values, property-tax revenues, or municipal spending.
And even if we were to assume those links in the
causal chain were satisfied, nothing in the record
supported an inference that it would be Wells Fargo’s
conduct that contributed to those injuries. Nor did the
ten loans issued before the limitations period that
have gone into foreclosure establish standing because
the City failed to present evidence of the effect of the
foreclosures on property-tax revenues or municipal
spending. And nothing suggested that Wells Fargo
issued these loans on discriminatory terms or that
Wells Fargo’s conduct contributed to the decline in
property values. In short, the City failed to satisfy its
burden at the summary-judgment stage of introducing
evidence to establish its standing. Because the City
failed to satisfy its burden, we were obliged to vacate
the summary judgment against the City and remand
for the district court to dismiss the action for lack of
subject-matter jurisdiction.

9a

Judge Wilson argues that our decision conflicts with
our precedent in Huntsville and with the precedent of
the Supreme Court in Alabama Legislative Black
Caucus. He argues that Huntsville stands for the
proposition that “it is unfair to expect plaintiffs to
conjure proof of standing if they were never put on
notice that they would need to, and if they had limited
opportunity to discover or present such evidence.”
Dissenting Op. at 1325 n.1. He also stresses that in
Alabama Legislative Black Caucus, as here, the
defendant made a meritless challenge to the plaintiff’s
standing, and he suggests that the presence of a
meritless challenge to standing means that a plaintiff
lacks adequate notice of its need to prove standing.
See id. at 1326–27. But those decisions do not control
here.
The contrast between this appeal and Huntsville is
stark. In Huntsville, we applied only the pleading
standard to determine whether the plaintiffs had
standing to seek a preliminary injunction. 30 F.3d at
1336. We applied this more lenient standard because
the defendant had not made any standing argument
and “the plaintiffs had only a few hours of hearing
time to present their preliminary injunction case and
were thereby forced to limit their evidence to what
they reasonably understood to be the contested
issues.” Id. Unlike the limited time the plaintiffs had
in Huntsville to prepare their case, the City had more
than two years between Wells Fargo’s filing of its
motion for summary judgment and the district court’s
order granting it. The City could have sought
additional discovery to establish its standing in
response to Wells Fargo’s motion, which raised
standing, but it failed to do so. See Fed. R. Civ. P.

10a

56(d). It was not unfair to require the City to meet the
summary-judgment standard for standing in this
circumstance.
Alabama Legislative Black Caucus too is inapposite.
In Alabama Legislative Black Caucus, the Supreme
Court held that fairness concerns required giving the
plaintiff an opportunity to present evidence of its
standing instead of sua sponte dismissing for lack of
subject-matter jurisdiction. 575 U.S. at 270–71, 135
S.Ct. 1257. Fairness concerns arose because the
plaintiff had introduced evidence that led to at least a
“common sense inference” that it had standing,
neither the defendant nor the district court challenged
the basis of that inference, and the plaintiff was easily
able to proffer evidence that would have established
its standing. Id. Alabama Legislative Black Caucus
concluded that it was unfair to dismiss absent special
notice to the plaintiff because the plaintiff reasonably
believed that it had established its standing and the
defendant had not argued to the contrary. Id. But
contrary to Judge Wilson’s suggestion, the lack of a
meritorious challenge to a plaintiff’s standing does not
by itself make it unfair to dismiss sua sponte for lack
of standing. Because the plaintiff in Alabama
Legislative Black Caucus had introduced some
evidence to establish at least an inference of standing,
and the defendant had not challenged the plaintiff’s
evidence of standing, the Supreme Court reasoned
that the plaintiff might have thought that the
defendant did not contest the factual basis for its
standing. Id. at 270, 135 S.Ct. 1257. So in the absence
of special notice that the plaintiff had not established
its standing before dismissing the action, the Supreme
Court required the district court to give the plaintiff

11a

another opportunity to prove its standing. Id. at 270–
71, 135 S.Ct. 1257.
That special notice of the need to establish standing
was not required here. The City not only failed to
establish its standing, it failed to so much as create an
inference that it had standing. And it received
repeated notice of its need to prove its standing
throughout the litigation from both the district court
and Wells Fargo. That Wells Fargo’s argument lacked
merit does not mean that it failed to provide the City
with notice that it needed to establish its standing at
the summary-judgment stage. After all, Wells Fargo
repeatedly grappled with the City’s theory of
standing—even if in a different time-frame—and the
elements of standing that we held were lacking: injury
and causation. The City faced those repeated
challenges and knew from City of Miami that it would
need to produce evidence of its standing. But unlike
the plaintiff in Alabama Legislative Black Caucus, it
failed to introduce evidence to create even an
inference that it had suffered an injury fairly
traceable to Wells Fargo’s challenged conduct. In the
face of Wells Fargo’s repeated challenges, the City
could not reasonably believe that it did not need to
respond with evidence of its standing.
Judge Wilson also argues that the limitation on
discovery by the district court makes this dismissal
unfair. See Dissenting Op. at 1326–27. To be sure, a
district court should not grant summary judgment
“until the party opposing the motion has had an
adequate opportunity for discovery,” but we have
made clear that “the party opposing the motion for
summary judgment bears the burden of calling to the

12a

district court’s attention any outstanding discovery.”
Snook v. Tr. Co. of Ga. Bank of Savannah, N.A., 859
F.2d 865, 870–71 (11th Cir. 1988). If the opposing
party fails to satisfy that burden, it cannot argue that
the district court granted summary judgment
prematurely by failing to order or await the results of
further discovery. Urquilla-Diaz v. Kaplan Univ., 780
F.3d 1039, 1063–64 (11th Cir. 2015); Reflectone, Inc.
v. Farrand Optical Co., 862 F.2d 841, 843–44 (11th
Cir. 1989). In the same way, it is not unfair if a
plaintiff fails to alert the district court to its need for
further discovery to prove its standing at summary
judgment and a circuit court decides in the first
instance that the plaintiff failed to establish standing.
In either circumstance, the plaintiff has effectively
consented to adjudication of the issues raised in the
summary-judgment motion based on the existing
record by failing to avail itself of the opportunity to
seek further discovery.
The City failed to satisfy its “burden of calling to the
district court’s attention any outstanding discovery”
on the standing issue. Snook, 859 F.2d at 871. The
City filed a declaration under Federal Rule of Civil
Procedure 56(d)—the preferred vehicle for advising
the district court of the need for additional discovery—
but did not mention standing and later retracted the
declaration and opposed Wells Fargo’s motion for
summary judgment on the merits. The City filed that
Rule 56(d) declaration with a motion to strike or, in
the alternative, stay or deny Wells Fargo’s refiled
motion for summary judgment to allow for additional
discovery. And, to reiterate, Wells Fargo refiled its
initial motion for summary judgment from over a year
earlier that had raised the issue of Article III

13a

standing. Yet neither the City’s declaration nor its
motion stated that it needed additional discovery to
satisfy its burden of establishing standing.
The City again failed to mention its need for
additional discovery to establish its standing when
the district court held a hearing to determine whether
to consider Wells Fargo’s refiled motion for summary
judgment or to expand discovery. The district court
specifically asked the City what additional evidence it
would find useful before it ruled on Wells Fargo’s
motion. The City said that additional evidence would
be “helpful to put some of the disputed issues and
noise in perspective,” but it never said that it needed
any evidence to establish its standing.
The City cannot now contend that it is unfair to hold
it to the record before the district court. It was the
City’s obligation to comply with Rule 56(d) by
“specifically demonstrat[ing] how postponement of a
ruling on the motion” would enable it, “by discovery or
other means, to rebut the movant’s showing of the
absence of a genuine issue of fact.” Reflectone, 862
F.2d at 843 (internal quotation marks omitted).
Although we have acknowledged a limited “interests
of justice” exception that allows district courts to
postpone ruling on a motion for summary judgment in
the absence of a party’s compliance with the technical
requirements of Rule 56(d), that limited exception still
requires the opponent to provide notice in a manner
equivalent to Rule 56(d). Snook, 859 F.2d at 871; see
also Reflectone, 862 F.2d at 844. The City failed to
satisfy that burden and so consented to the
adjudication of the issues raised in Wells Fargo’s
motion based on the existing record.

14a

And even when we gave the City the opportunity on
appeal to explain how further discovery would have
enabled it to establish its standing, the City came up
short. It stated at oral argument that the additional
evidence it would have sought was access to Wells
Fargo’s worldwide database of loans. See Oral
Argument at 26:57–27:45 (June 14, 2019).
Presumably, the City would have used that data to
run the statistical analysis that it referred to in its
complaint, but the City’s averment left us only to
speculate about how that analysis would turn out.
That speculative contention is yet another reason why
the fairness concerns in Alabama Legislative Black
Caucus are not present. See Ala. Legislative Black
Caucus, 575 U.S. at 271, 135 S.Ct. 1257 (explaining
that because of the evidence the plaintiff proffered to
the Supreme Court, it had “no reason to believe that
the [plaintiff] would have been unable to provide
[evidence to establish its standing]”).
Judge Wilson contends that the panel “treat[ed] the
City like the teacher who takes away a student’s
pencils before a test, refuses to give them back, and
then gives the student a failing grade when she turns
in a blank page.” Dissenting Op. at 1327. But a more
accurate analogy would be that the City opted to take
an exam—one that it had every reason to know would
be challenging and would require the use of pencils—
yet it showed up with no writing instruments at all
and failed to let the proctor know about its
predicament. The City was obliged to come to this
litigation prepared to prove its standing or to let the
district court know that it did not have the discovery
it needed to do so. The City cannot now complain that

15a

it was unfair to hold it responsible for its failing.

WILSON, Circuit Judge, joined by MARTIN, Circuit
Judge, dissenting from the denial of rehearing en
banc:
A panel of this court dismissed the City of Miami
Gardens’s Fair Housing Act (FHA) case for lack of
Article III standing, sua sponte. It did so even though
the City received neither proper notice that it failed to
prove standing nor a legitimate opportunity to
discover or produce the requisite evidence. But, in
Alabama Legislative Black Caucus v. Alabama, the
Supreme Court held that, when a plaintiff receives
neither proper notice that it failed to prove standing
nor an opportunity to produce the requisite evidence,
sua sponte dismissal on Article III standing grounds
violates “elementary principles of procedural
fairness.” 575 U.S. 254, 268–71, 135 S.Ct. 1257, 191
L.Ed.2d 314 (2015). The panel’s decision clearly
conflicts with Alabama Legislative Black Caucus.1
When a panel decision conflicts with Supreme Court
precedent, en banc consideration is “necessary to
secure and maintain uniformity of the court’s
decisions.” Fed. R. App. P. 35(b)(1)(A); see Fed. R. App.
P. 35(a)(1). Therefore, I dissent from the denial of
rehearing en banc.
In Alabama Legislative Black Caucus, a racial
gerrymandering case, a three-judge district court
panel held that an organizational plaintiff lacked
standing, citing insufficient evidence to demonstrate
members’ residency in the relevant districts. 575 U.S.
at 268–69, 135 S.Ct. 1257. The Supreme Court

16a

vacated and remanded. Id. at 258, 271, 135 S.Ct. 1257.
It held that “in these circumstances, elementary
principles of procedural fairness required that the
[court], rather than acting sua sponte, give the
[plaintiff] an opportunity to provide evidence”
supporting its standing. Id. at 271, 135 S.Ct. 1257.
The “circumstances” in Alabama Legislative Black
Caucus were these. Before trial, the defendant had
attacked the organizational plaintiff’s Article III
standing. See id. at 270, 135 S.Ct. 1257 (citing
defendant’s memorandum in support of motion for
summary judgment). The case went to trial. Id. at 260,
135 S.Ct. 1257. There the plaintiff had the
quintessential opportunity to put on evidence of
standing and did so—at least enough for an
“inference” of standing. See id. at 269–70, 135 S.Ct.
1257. And, “had it been asked,” the plaintiff could
have provided more evidence of standing, such as its
own member residency list; it did not need discovery
to access or produce such evidence. See id. at 270–71,
135 S.Ct. 1257.
If “elementary principles of procedural fairness
required that the [court], rather than acting sua
sponte, give the [plaintiff] an opportunity to provide
evidence” supporting its standing there, see id. at 271,
135 S.Ct. 1257, they do even more so here. To start, in
Alabama Legislative Black Caucus, the Supreme
Court recognized that the defendant’s Article III
standing attack was off-base and thus failed to put the
plaintiff on notice that it needed to shore up its
standing. See id. at 270, 135 S.Ct. 1257 (noting that
the state had attacked the organizational plaintiff’s
standing based on the idea that an organization

17a

“lives” nowhere, not based on “inadequate member
residency”). As in that case, the defendant here—
Wells Fargo—had attacked the City’s Article III
standing.2 But, as the panel here recognized, Wells
Fargo’s argument was off-base too because it focused
on the “statutory requirement of timeliness”—i.e., the
statute of limitations—rather than “the constitutional
requirements of standing.” See City of Miami
Gardens, 931 F.3d at 1283. So, as in Alabama
Legislative Black Caucus, Wells Fargo’s meritless
argument failed to put the City on notice that it
needed to demonstrate that it met the constitutional
requirements of standing.3
What is more, unlike in Alabama Legislative Black
Caucus, the City of Miami Gardens had no
opportunity to prove its standing, much less the
opportunity of a trial. Not only that—despite its
repeated requests, the City never even got the
necessary discovery to prove its standing, something
the Alabama Legislative Black Caucus plaintiff didn’t
need.
Here, unlike in Alabama Legislative Black Caucus,
the defendant Wells Fargo controlled the evidence
that the City needed to prove its Article III standing.
For example, one of the City’s alleged injuries was
reduced property tax revenues. To prove that Wells
Fargo caused reduced property tax revenues, the City
first needed to identify more FHA-violative loans by
Wells Fargo dating years before the statute-oflimitations period. For that, the City needed
information from Wells Fargo’s database, as it alleged
in its complaint. And it could only access this
information in this database via discovery. Yet from

18a

the outset, and over the City’s objections, the district
court limited discovery to the statute-of-limitations
period and stayed “discovery on all matters unrelated
to Wells Fargo loans originated [during the statute-oflimitations period] until resolution of the parties’
partial summary judgment motions.”
Because of this dependency on and deprivation of
discovery, unlike in Alabama Legislative Black
Caucus, the City could not have snapped its fingers
and produced evidence to prove standing. It thus
asked repeatedly for full discovery, i.e., discovery
related to Wells Fargo loans originated before the
statute-of-limitations period—discovery necessary to
prove its injuries were fairly traceable to Wells
Fargo’s conduct. But the City never got that discovery.
Not after it objected to the initial discovery limitation
and stay. Not after it argued time and again for full
discovery. Not after its motions to compel full
discovery. Not ever. Under Alabama Legislative Black
Caucus, “elementary principles of procedural fairness
required that the [panel], rather than acting sua
sponte, give the [City]” that which it never got—full
discovery. See 575 U.S. at 271, 135 S.Ct. 1257.
The panel tried to frame appellate briefing and oral
argument as legitimate opportunities for the City to
produce evidence of its standing. But briefing and oral
argument are no substitutes for discovery. An
“opportunity” to show evidence of standing is
worthless if the plaintiff never had the opportunity to
discover such evidence. Thus, it is no surprise to me—
nor should it have been to the panel—that the City
showed up empty handed at briefing and oral
argument.

19a

In the end, the panel afforded the City nothing more
than the illusion of procedural fairness. It treats the
City like the teacher who takes away a student’s
pencils before a test, refuses to give them back, and
then gives the student a failing grade when she turns
in a blank page. That is simply not fair.
Footnotes

*

Chief Judge Ed Carnes and Judge Barbara
Lagoa recused themselves and did not
participate in this proceeding.

1

The panel’s decision is also inconsistent with our
precedent in Church v. City of Huntsville, in
which we held that it is unfair to require
standing evidence beyond the allegations in the
complaint when the defendant did not “put[ ] the
plaintiff[s] on notice that standing is contested”
and the plaintiffs had a limited opportunity to
present evidence. 30 F.3d 1332, 1336 (11th Cir.
1994). Although Church addressed standing in
the context of a hearing on a preliminary
injunction, id., the point remains the same—it is
unfair to expect plaintiffs to conjure proof of
standing if they were never put on notice that
they would need to, and if they had limited
opportunity to discover or present such evidence.

2

The panel distinguishes Alabama Legislative
Black Caucus by saying that it did “not purport
to speak to circumstances like those of this
appeal, in which the opposing party raised the

20a

issue of standing.” City of Miami Gardens v.
Wells Fargo & Co., 931 F.3d 1274, 1286 (11th
Cir. 2019) (per curiam). The panel is
demonstrably wrong; in fact, Alabama
Legislative Black Caucus spoke to nearly
identical circumstances. See Ala. Legislative
Black Caucus, 575 U.S. at 270, 135 S.Ct. 1257.
3

Note that there were other circumstances that
gave the City every reason to believe that the
district court had no concerns whatsoever about
the City’s standing at partial summary
judgment, which was limited to the statute-oflimitations issue. Suffice it to say, the district
court diligently evaluated and monitored its
jurisdiction and the City’s standing for years.
The district court stayed this case pending the
results of appeals to this court in two other cases:
City of Miami v. Bank of Am. Corp., No. 1324506, 2014 WL 3362348 (S.D. Fla.) and City of
Miami v. Wells Fargo & Co., No. 13-24508, 2014
WL 3362348 (S.D. Fla.), both of which involved
standing issues for FHA claims virtually
identical to those here. After this court held in
both cases that the city plaintiff had adequately
alleged facts to show Article III standing, see
City of Miami v. Bank of Am. Corp., 800 F.3d
1262, 1272–73 (11th Cir. 2015); City of Miami v.
Wells Fargo & Co., 801 F.3d 1258, 1265–66 (11th
Cir. 2015), the district court in this case lifted
the stay. When the Supreme Court granted
certiorari in those cases, the district court stayed
this case again. Ultimately the Supreme Court
vacated and remanded the cases without
addressing or suggesting any issue with Article

21a

III standing. Bank of Am. Corp. v. City of Miami,
581 U.S. ––––, 137 S. Ct. 1296, 1306, 197
L.Ed.2d 678 (2017). Thus, following the appeals,
everyone thought the City of Miami Gardens had
Article III standing. The district court lifted its
stay and allowed this case to proceed.

22a

APPENDIX B
931 F.3d 1274
United States Court of Appeals, Eleventh Circuit.
CITY OF MIAMI GARDENS, a Florida Municipal
Corporation, Plaintiff-Appellant,
v.
WELLS FARGO & CO., Wells Fargo Bank N.A.,
Defendants-appellees.
No. 18-13152
|
(July 30, 2019)
Attorneys and Law Firms
Robert S. Peck, Center for Constitutional Litigation,
PC, WASHINGTON, DC, Christina M. Black, Patrick
F. Madden, Russell D. Paul, Sherrie R. Savett, Sarah
R. Schalman-Bergen, Berger & Montague, PC,
PHILADELPHIA, PA, Kelly Dermody, Rachel
Geman, Lieff Cabraser Heimann & Bernstein, LLP,
SAN FRANCISCO, CA, John T. Nicolaou, Daniel E.
Seltz, Lieff Cabraser Heimann & Bernstein, LLP,
NEW YORK, NY, Sonja K. Dickens, City of Miami
Gardens, MIAMI GARDENS, FL, D. Porpoise Evans,
Perlman Bajandas Yevoli & Albright, PL, CORAL
GABLES, FL, Joel Liberson, Trial & Appellate
Resources, PC, EL SEGUNDO, CA, Yosef Peretz,
Peretz & Associates, SAN FRANCISCO, CA, Joshua
Byrne Spector, Perlman Bajandas Yevoli & Albright,
PL, CORAL GABLES, FL, for Plaintiff-Appellant.
Paul Francis Hancock, Olivia Waters Kelman, K&L
Gates, LLP, MIAMI, FL, Andrew C. Glass, K&L

23a

Gates, LLP, BOSTON, MA, Carol Ann Licko, John F.
O’Sullivan, James Leo VanLandingham, Hogan
Lovells US, LLP, MIAMI, FL, Dwayne Antonio
Robinson, Kozyak Tropin & Throckmorton, PA,
CORAL GABLES, FL, Clayton P. Solomon, Stroock
Stroock & Lavan, LLP, MIAMI, FL, for DefendantsAppellees.
Appeal from the United States District Court for the
Southern District of Florida, D.C. Docket No. 1:14-cv22203-FAM
Before WILLIAM PRYOR, NEWSOM, and BRANCH,
Circuit Judges.
Opinion
PER CURIAM:
This appeal requires us to decide whether the
summary-judgment standard applies in determining
whether a plaintiff has standing when the district
court has limited discovery and the merits issues to be
considered on summary judgment, and, if so, whether
the plaintiff in this appeal introduced sufficient
evidence of standing under that standard. The City of
Miami Gardens filed a complaint against Wells Fargo
& Co. and Wells Fargo Bank, N.A., alleging that they
violated the Fair Housing Act, 42 U.S.C. §§ 3601–19,
by steering black and Hispanic borrowers into highercost loans than similarly situated white borrowers.
The district court bifurcated discovery, with the initial
phase focused on whether the City could identify a

24a

violation that occurred within the two-year limitation
period provided by the Act, id. § 3613(a)(1)(A). After
initial discovery, the district court entered summary
judgment in favor of Wells Fargo on the merits. The
City challenges this ruling, but Wells Fargo argues
that the district court should have dismissed the suit
because the City failed to establish standing. Before
oral argument, we asked the parties to address
whether the City established standing under the
standard ordinarily applicable at summary judgment
and, if not, whether the limitations on the subject
matter of discovery and summary judgment imposed
by the district court mandate the application of a more
lenient standard. We conclude that the ordinary
standard applies and that the City has not established
standing. We vacate and remand with instructions to
dismiss for lack of subject-matter jurisdiction.

I. BACKGROUND
The City filed its initial complaint on June 13, 2014,
alleging that between 2004 and 2008, Wells Fargo
originated mortgage loans in “numerous geographic
markets around the country” that violated the Fair
Housing Act. The City did not allege that it had
received such loans from Wells Fargo. Instead, the
City asserted that Wells Fargo engaged in both
redlining—the practice of denying credit to particular
neighborhoods
based
on
race—and
reverse
redlining—the practice of “flooding a minority
community with exploitative loan products”— by
“refusing to extend mortgage credit to minority
borrowers ... on equal terms as to nonminority
borrowers” and “extending mortgage credit on

25a

predatory terms to minority borrowers in minority
neighborhoods in Miami Gardens.”
The district court dismissed the initial complaint
without prejudice and instructed the City that any
amended complaint would have to state “the exact
violations of the Fair Housing Act” and “what specific
predatory practices occurred in Miami Gardens and
how minorities were allegedly targeted there.” The
district court also determined that an amended
complaint would need to “allege ... the facts that confer
standing to complain about private home foreclosures,
the specific injury to the governmental entity, the
precise number and dates of foreclosures, and the
specific costs to the City of Miami Gardens.” To that
end, the district court directed the City to detail “(1)
how Miami Gardens is injured, (2) how that injury is
traceable to the conduct of each Wells Fargo
defendant, and (3) how the injury can be redressed
with a favorable decision in this case.” The City twice
amended its complaint.
The amended complaint alleged that “AfricanAmericans and Hispanics and residents of
predominantly African-American and Hispanic
neighborhoods in Miami Gardens ... receive[d]
mortgage loans from Wells Fargo that have materially
less favorable terms than mortgage loans given by
Wells Fargo to similarly situated whites and residents
of predominantly white neighborhoods in Miami
Gardens.” The complaint outlined a list of kinds of
“predatory loans” that Wells Fargo allegedly “steered
minorities into when they otherwise qualified for less
expensive and less risky loans,” including high-cost
loans (i.e., loans with an interest rate at least three

26a

percent above the Treasury rate prior to 2010 and oneand-a-half percent above the prime mortgage rate
thereafter), subprime loans, interest-only loans,
balloon-payment loans, loans with prepayment
penalties,
negative-amortization
loans,
nodocumentation loans, higher-cost government loans,
such as Federal Housing Administration and
Veterans Affairs loans, home-equity line-of-credit
loans, and adjustable-rate mortgage loans with
“teaser rates” (loans in which the lifetime maximum
rate is greater than the initial rate plus six percent).
The amended complaint also addressed standing by
alleging that loans issued to minority borrowers in
Miami Gardens were more likely to go into default or
foreclosure as a result of Wells Fargo’s alleged
practice of steering those borrowers into higher-cost
loans. These effects on the housing market in Miami
Gardens allegedly caused the City to suffer “economic
injury based upon reduced property tax revenues
resulting from (a) the decreased value of the vacant
properties themselves, and (b) the decreased value of
properties surrounding the vacant properties.” Apart
from the asserted impact on property-tax revenues,
the foreclosures and defaults allegedly increased the
“cost[s] of municipal services ... to remedy blight and
unsafe and dangerous conditions which exist at
properties that were foreclosed as a result of Wells
Fargo’s illegal lending practices.” The amended
complaint also alleged that the City sustained noneconomic injuries because Wells Fargo’s lending
“impaired the City’s goals to assure that racial factors
do not adversely affect the ability of any person to
choose where to live in the City or ... detract from the
... benefits of living in an integrated society” and

27a

“adversely affected the City’s longstanding and active
interest in promoting fair housing and securing the
benefits of a stable racially non-discriminatory
community.”
The statute of limitations for claims under the Act
requires a plaintiff to file suit “not later than 2 years
after the occurrence or the termination of an alleged
discriminatory housing practice.” 42 U.S.C. §
3613(a)(1)(A). Wells Fargo filed its first complaint on
June 13, 2014, so for the complaint to be timely, an act
of housing discrimination must have occurred on or
after June 13, 2012. Although much of the amended
complaint concerned subprime lending practices that
ended before June 13, 2012, it also alleged that Wells
Fargo “continued to issue predatory mortgage loans to
minorities in Miami Gardens subsequent to June 13,
2012.” The alleged violations that occurred outside of
the limitation period were actionable in principle
under the continuing-violation doctrine of Havens
Realty Corp. v. Coleman, 455 U.S. 363, 102 S.Ct. 1114,
71 L.Ed.2d 214 (1982). Under that doctrine, if a
plaintiff “challenges not just one incident of conduct
violative of the Act, but an unlawful practice that
continues into the limitations period, the complaint is
timely” if the “last asserted occurrence of that
practice” occurred within the limitation period. Id. at
380–81, 102 S.Ct. 1114.
Because the City could invoke the continuingviolation doctrine only if it could identify a loan
violative of the Act that occurred within the limitation
period, Wells Fargo moved to divide discovery into
phases, with the initial phase focused on the threshold
question whether the City could satisfy the statute of

28a

limitations. On January 19, 2016, the district court
entered a scheduling order accepting Wells Fargo’s
proposed bifurcation. The order instructed the parties
“to complete initial discovery related to loans
originated between June 13, 2012, and June 12, 2014,”
by February 19, 2016, and imposed a deadline of
February 29 to file “summary judgment motions on
the statute of limitations issue.”
On January 20, the City served requests for
production of documents, requests for admission, and
interrogatories. Five days later, Wells Fargo produced
electronic data concerning 153 loans originated in
Miami Gardens during the limitation period that
included information about the characteristics of the
borrowers and the details of the loans. Wells Fargo
also produced “formal written policies” that the City
requested. The City deposed three Wells Fargo
officials, and Wells Fargo conducted two depositions,
including a deposition of the City through its
corporate representative. Fed. R. Civ. P. 30(b)(6).
On January 29, the City filed one discovery motion,
but it did not challenge the restriction of the subject
matter of discovery or Wells Fargo’s responses or
document production. Instead, the motion requested
“a 30 day extension of time to conduct discovery,” so
that the deadline for the completion of initial
discovery would fall on March 21, and the deadline to
file motions for summary judgment would fall on
March 31. The City also filed an unopposed motion for
a “14 day extension of time” for summary-judgment
briefing.
At a hearing on the City’s motions held on February

29a

25, the magistrate judge asked the parties whether
there was “other discovery that needs to be done for
[Wells Fargo] to file [a] motion for summary judgment
or for [the City] to file [its] response.” The City
requested data concerning loans originated outside
Miami Gardens in Miami-Dade County. The
magistrate judge granted the City’s request for an
extension of the period for briefing but denied the
City’s other requests. It concluded that “discovery was
in large part completed within the time frame set by
[the district court] and the discovery the plaintiff is
now seeking should have been raised with opposing
counsel and the Court earlier.”
On March 14, Wells Fargo moved for summary
judgment. After the City filed its opposition, the
district court placed the case “in civil suspense”
because the Supreme Court granted certiorari to
review a decision of this Court in an appeal that arose
from a similar suit brought against Bank of America
and Wells Fargo by the City of Miami. See City of
Miami v. Bank of Am. Corp. (City of Miami I), 800
F.3d 1262 (11th Cir. 2015), cert. granted, ––– U.S. ––
––, 136 S. Ct. 2545, 195 L.Ed.2d 867 (2016), vacated
and remanded sub nom. Bank of Am. Corp. v. City of
Miami (City of Miami II), ––– U.S. ––––, 137 S. Ct.
1296, 197 L.Ed.2d 678 (2017). The district court
granted leave to Wells Fargo to refile its motion for
summary judgment after the Supreme Court’s
decision. Wells Fargo refiled on May 31, 2017.
On June 13—more than a year after the parties
completed briefing on the initial motion for summary
judgment and the hearing on the City’s initial request
for expanded discovery—the City moved to “defer

30a

Wells Fargo’s [motion] due to the need to conduct
additional discovery under Federal Rule of Civil
Procedure 56(d).” One month later, the district court
held a hearing on the City’s motion to defer
consideration of the motion for summary judgment. At
the hearing, the City explained that it requested
deferral because Wells Fargo had raised “new
business necessity defenses” that were beyond the
limited scope of the statute-of-limitations issue. But
when the district court reiterated that the only merits
issue to be considered on summary judgment was
whether the City could satisfy the statute of
limitations, the City stated that the only “discovery” it
“would need” would be permission to introduce a
supplemental expert report by Ian Ayres, a professor
at the Yale Law School and the Yale School of
Management. The district court granted that request
and the report was admitted into evidence.
Wells Fargo’s motion for summary judgment raised
three principal arguments. First, it argued that the
City was bound by the testimony of its representative
who testified under Rule 30(b)(6), and because that
testimony “conceded ... that the City could not identify
any ‘predatory’ or ‘discriminatory’ loans in the
Limitations Period,” the City could not introduce new
evidence of discriminatory lending to supplement the
representative’s profession of ignorance. Second, the
motion contended that the City had not presented
sufficient evidence to support a reasonable inference
that the 153 loans originated by Wells Fargo in Miami
Gardens during the limitation period were unlawful
under either a disparate-treatment or a disparateimpact theory of discrimination. And third, the motion
argued that the City had not introduced sufficient

31a

evidence to establish standing because the undisputed
evidence “reflect[ed] that none of the 153 loans Wells
Fargo originated in Miami Gardens during the
Limitations Period foreclosed.”
With respect to standing, the City argued that
because it was proceeding under a continuingviolation theory of liability, it had no duty to identify
an injury causally attributable to a loan originated
during the limitation period. The City also argued
that “the loans issued during the statutory period
[were] likely to injure the City in the same manner as
the loans” that were identified in the City’s complaint
“as part of the continuing violation from the prelimitations period.” In support of this conjecture, the
City pointed out that Ayres had “identified a loan”
originated in the limitation period “that ha[d] already
been delinquent since it was issued, whereas the lower
cost loan issued to the similarly situated white
borrower ha[d] not encountered similar problems.”
The City’s response on the merits relied principally on
Ayres’s reports, which identified two governmentinsured home-purchase loans, referenced by the
parties as loans HC2 and HC6, that were allegedly
more expensive after controlling for various factors
than loan NHW8, which was issued to an allegedly
similarly situated white borrower. Ayres opined that
the cost differential between the loans was “consistent
with the hypothesis” of race-based discrimination, but
he acknowledged that Wells Fargo “also issued some
loans to minority borrowers that were priced lower
than loans made to non-Hispanic white borrowers
with similar characteristics.”

32a

Ayres’s conclusions were partly at odds with those of
Wells Fargo’s expert, Bernard Siskin, who argued in a
rebuttal report that there were key differences
between loans HC2 and HC6 on the one hand and loan
NHW8 on the other. Loan NHW8 was originated
during a two-week period in which Wells Fargo offered
a promotional pricing discount on all loans. And the
minorities who received loans HC2 and HC6 opted to
receive a higher interest rate in exchange for more
lender credits, which operate as rebates to offset
closing costs. The borrowers of loans HC2 and HC6
received $8,000 and $1,877 in lender credits,
respectively, whereas the borrower of loan NHW8
received only $479.
The district court granted summary judgment to
Wells Fargo on the merits. It declined to address the
issue of standing and ruled that the City had failed to
establish a genuine issue of material fact as to
whether Wells Fargo engaged in disparate-impact or
disparate-treatment discrimination within the
limitation period. The district court accepted Wells
Fargo’s argument that the City was “bound by the
testimony of its Rule 30(b)(6) representative.” Because
that representative “conceded during his deposition
that the City could not identify any ‘predatory’ or
‘discriminatory’ loans in the limitations period” and
“was unaware of any information providing a basis for
the City’s allegation that borrowers were or may have
been eligible for ‘more favorable and less expensive
loans,’ ” the district court concluded that the City was
not permitted to supplement that testimony with
additional evidence of discrimination under Rule
30(b)(6).

33a

The district court ruled, in the alternative, that even
if Rule 30(b)(6) did not bar the introduction of other
evidence of discrimination, the City’s evidence was
insufficient to support a prima facie case that
disparate-impact
or
disparate-treatment
discrimination occurred within the limitation period.
The district court concluded that the City’s disparateimpact claim failed because the City identified only
two loans issued to minorities that were purportedly
more expensive than loans issued to similarly situated
white borrowers, which was not enough “to show the
policies produced statistically-imbalanced lending
patterns.” The district court also concluded that the
City failed to present any evidence of a causal
connection between Wells Fargo’s lending policies and
the cost disparity. As for the City’s disparatetreatment claim, the district court concluded that
because “[t]he minority borrowers opted to receive a
higher rate of interest in exchange for lender credits
... to defray closing costs” while their nonminority
comparator received de minimis lender credits and a
promotional discount, the minority borrowers of the
higher cost loans identified by the City were not
similarly situated to their alleged comparator.

II. STANDARD OF REVIEW
We review questions of subject-matter jurisdiction de
novo. United States v. Pavlenko, 921 F.3d 1286, 1289
(11th Cir. 2019).

34a

III. DISCUSSION
Wells Fargo argues that the district court should have
dismissed the City’s suit for lack of standing because
“the undisputed evidence confirmed that none of the
153 loans originated by Wells Fargo [within the
limitation period] foreclosed,” so the City could not
have suffered an injury as a result of any of these
loans. We agree that the City has not satisfied the
injury or causation elements of standing, but not for
the reason provided by Wells Fargo.
Article III limits the subject-matter jurisdiction of the
federal courts to “Cases” and “Controversies.” U.S.
Const. art. III, § 2. “To have a case or controversy, a
litigant must establish that he has standing, which
must exist ‘throughout all stages of litigation.’ ”
United States v. Amodeo, 916 F.3d 967, 971 (11th Cir.
2019) (quoting Hollingsworth v. Perry, 570 U.S. 693,
705, 133 S.Ct. 2652, 186 L.Ed.2d 768 (2013)). “The
federal courts are under an independent obligation to
examine their own jurisdiction, and standing is
perhaps the most important of the jurisdictional
doctrines.” United States v. Hays, 515 U.S. 737, 742,
115 S.Ct. 2431, 132 L.Ed.2d 635 (1995) (alteration
adopted) (citation and internal quotation marks
omitted).
Article III standing has three elements. First, “the
plaintiff must have suffered an injury in fact—an
invasion of a legally protected interest which is (a)
concrete and particularized, and (b) actual or
imminent, not conjectural or hypothetical.” Lujan v.
Defs. of Wildlife, 504 U.S. 555, 560, 112 S.Ct. 2130,
119 L.Ed.2d 351 (1992) (citations and internal

35a

quotation marks omitted). Second, “there must be a
causal connection between the injury and the conduct
complained of—the injury has to be fairly traceable to
the challenged action of the defendant, and not the
result of the independent action of some third party
not before the court.” Id. (alterations adopted)
(citation and internal quotation marks omitted).
Third, “it must be likely, as opposed to merely
speculative, that the injury will be redressed by a
favorable decision.” Id. at 561, 112 S.Ct. 2130
(internal quotation marks omitted).
“The party invoking federal jurisdiction bears the
burden of establishing these elements.” Id. “Since they
are not mere pleading requirements but rather an
indispensable part of the plaintiff’s case, each element
must be supported in the same way as any other
matter on which the plaintiff bears the burden of
proof, i.e., with the manner and degree of evidence
required at the successive stages of litigation.” Id.
Although “[a]t the pleading stage, ... factual
allegations of injury resulting from the defendant’s
conduct may suffice,” “[i]n response to a summary
judgment motion, ... the plaintiff can no longer rest on
such ‘mere allegations,’ but must ‘set forth’ by
affidavit or other evidence ‘specific facts,’ ... which for
purposes of the summary judgment motion will be
taken as true.” Id. (quoting Fed. R. Civ. P. 56(e)). At
the summary-judgment stage, the burden to establish
standing is satisfied only if “ ‘affidavits or other
submissions indicate that a genuine issue of material
fact exists concerning standing.’” Bischoff v. Osceola
County, 222 F.3d 874, 881 (11th Cir. 2000) (quoting
Munoz-Mendoza v. Pierce, 711 F.2d 421, 425 (1st Cir.
1983)).

36a

Wells Fargo’s argument about the City’s standing
rests on a flawed premise. Wells Fargo assumes that
the City has standing only if it suffered an injury that
was caused by a loan originated during the limitation
period, but this assumption conflates the
constitutional requirements of standing with the
statutory requirement of timeliness. Article III
requires, among other things, that the plaintiff
establish an injury in fact and causation, Lujan, 504
U.S. at 560, 112 S.Ct. 2130, but an injury need not
occur as a result of conduct that occurred within the
timeframe provided by the statute of limitations
applicable to the plaintiff’s cause of action to satisfy
those requirements. The City has standing so long as
one of the loans challenged as discriminatory has
caused or will cause the City to suffer a de facto injury
redressable by favorable decision. Whether a
complaint about that loan or loans would be timely is
a separate issue.
In its initial briefing on appeal, the City did not point
to any evidence that it sustained an injury traceable
to the conduct of Wells Fargo, but in response to our
request that parties address standing at oral
argument, the City relied on two pieces of evidence
drawn from the summary-judgment record. First, the
City asserted that one of the allegedly discriminatory
loans identified in Ayres’s reports, HC2, has been
delinquent since it was issued, but that the loan
issued to that borrower’s purported nonminority
comparator, NHW8, has not. The City speculated that
loan HC2 will likely go into foreclosure and cause the
City to suffer the kind of economic injuries asserted in
the operative complaint. Second, the City pointed to
ten loans identified in the complaint and an attached

37a

exhibit that were originated before the limitation
period. According to the complaint, the value of the
properties associated with these loans has declined
since they entered foreclosure between 2008 and 2012.
This evidence is insufficient to establish standing. The
City’s evidence of a risk that loan HC2 will go into
foreclosure at some point in the future does not satisfy
the requirement that a threatened injury be
“imminent, not conjectural or hypothetical.” Lujan,
504 U.S. at 560, 112 S.Ct. 2130 (citation and internal
quotation marks omitted). As the Supreme Court has
explained, a “threatened injury must be certainly
impending to constitute injury in fact,” and
“[a]llegations of possible future injury are not
sufficient.” Clapper v. Amnesty Int’l, 568 U.S. 398,
409, 133 S.Ct. 1138, 185 L.Ed.2d 264 (2013) (citations
and internal quotation marks omitted). The
delinquency of a single loan does not establish a
certainly impending risk that the City will lose
property-tax revenues or be forced to increase
municipal spending to remediate blight. Whether the
delinquency on this loan will result in foreclosure, and
whether that foreclosure will have any impact on
property values, property-tax revenues, or municipal
spending, are questions left entirely open by the
evidence in the summary-judgment record.
The evidence that loan HC2 may go into foreclosure
also fails to satisfy the requirement of causation. The
complaint concedes that “isolat[ing] the lost property
value attributable to Wells Fargo foreclosures” would
have required the use of a “statistical regression
technique that focuses on effects on neighboring
properties” “known as Hedonic regression,” which

38a

involves the “study[ ] [of] thousands of housing
transactions.” The City never conducted any analysis
of this kind and probably could not do so in the light
of the paucity of allegedly discriminatory loans
identified by the City. So even if we were to assume
that loan HC2 will enter into foreclosure and that the
value of the property associated with that loan will
decline as a result, we would not be able to determine
the extent to which any decline in the value of the
property would be “fairly traceable to the challenged
action[s] of the defendant.” Lujan, 504 U.S. at 560,
112 S.Ct. 2130 (alterations adopted) (citations and
internal quotation marks omitted).
The complaint’s reference to ten loans that have gone
into foreclosure also does the City no good. The exhibit
attached to the complaint attests that the values of
the properties associated with these loans have
declined since they entered foreclosure, but the City
did not produce any evidence of the effect of these
foreclosures on property-tax revenues or municipal
spending. Nor did the City present any evidence that
these loans were issued on discriminatory terms or
otherwise attempt to isolate the contribution of Wells
Fargo’s actions, if any, to the decline in property value
sustained by these properties, presumably because
that would require the kind of hedonic-regression
analysis that the City avers would require an analysis
of thousands of housing transactions. So these loans
are inadequate to establish that the City suffered an
“actual or imminent” injury that was “fairly traceable
to the challenged action of the defendant, and not the
result of the independent action of some third party
not before the court,” id. (alterations adopted)
(citations and internal quotation marks omitted),

39a

under the standard applicable at summary judgment.
The City contends that because the district court
specified that it would entertain “summary judgment
motions on the statute of limitations issue” in its
January 19, 2016, scheduling order, it would be unfair
to hold the City to its burden to establish a genuine
dispute of material fact as to standing. But the legal
effect of the scheduling order was not to bar the
parties from raising jurisdictional issues on summary
judgment. The order limited the merits issues to be
considered and stayed discovery on unrelated
matters. The order adopted a “[d]eadline to file partial
summary judgment motions on the statute of
limitations issue,” and stayed “discovery on all
matters unrelated to Wells Fargo loans originated
between June 13, 2012, and June 12, 2014 ... until
resolution of the parties’ partial summary judgment
motions on the statute of limitations issue.” The order
was silent on whether consideration of the City’s
standing would be deferred until a later date.
Although the order’s reference to “partial summary
judgments on the statute of limitations issue” might
be taken to suggest that the statute of limitations was
the only issue to be considered on summary judgment,
that interpretation would unreasonably impute to the
district court a disregard of its basic obligation to “first
satisfy itself of [its] own jurisdiction” before
proceeding to resolve any merits issue. Amodeo, 916
F.3d at 971; see also Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 101, 118 S.Ct. 1003, 140 L.Ed.2d
210 (1998) (rejecting the doctrine of “hypothetical
jurisdiction,” under which a court may “resolve
contested questions of law when its jurisdiction is in
doubt”).

40a

Its later actions confirm that the district court did not
intend to defer consideration of threshold issues other
than the statute-of-limitations defense. The district
court stayed proceedings on June 30, 2016—after
Wells Fargo had filed a motion for summary judgment
raising the issue of standing under Article III—until
the Supreme Court resolved the issue of the “standing
of cities” to sue mortgage originators “for alleged ...
discriminatory lending practices” in City of Miami II.
True, the question addressed in City of Miami II was
whether comparable allegations of discriminatory
lending satisfied the requirement of “prudential
standing,” 137 S. Ct. at 1303, not standing under
Article III. But the decision to stay proceedings
pending the resolution of that issue would have made
little sense if the district court intended to impose a
strict limit on the consideration of any and all issues
other than the statute of limitations at summary
judgment.
Even on the supposition that the initial intended
effect of the scheduling order was to defer
consideration of standing, the parties had made
standing a contested issue by the time the district
court reviewed Wells Fargo’s motion for summary
judgment. Wells Fargo’s initial motion for summary
judgment prominently challenged the City’s standing
under Article III. The motion advised the City that “at
the summary judgment stage, the City must actually
produce some evidence that the City, and not just the
borrower, has Article III standing to sustain a claim
under the Fair Housing Act,” and it reminded the City
that it could “no longer rest on ... mere allegations,”
but instead had the burden to “set forth by affidavit or
other evidence specific facts showing that it has

41a

suffered a cognizable injury-in-fact.” This motion was
filed in March 2016 and refiled in late May 2017. The
City’s response to the motion disputed Wells Fargo’s
challenges to its standing using the same evidence
that the City raised in support of standing at oral
argument—Ayres’s conclusion that loan HC2 was
delinquent and the ten loans that had entered into
foreclosure mentioned in the complaint. So for more
than two years before the district court entered
summary judgment in late June 2018, both parties
operated under the assumption that the City’s
standing was in dispute and actively litigated that
issue.
To be sure, both this Court and the Supreme Court
have determined that in limited circumstances, the
absence of notice of the need to prove standing may
mandate either the application of a more lenient
standard or remand for further development of the
record. In Church v. City of Huntsville, 30 F.3d 1332
(11th Cir. 1994), we applied the pleading standard in
determining whether the plaintiffs had standing to
seek a preliminary injunction because the defendant
“did not question [the] plaintiff[s’] standing” and “the
plaintiffs had only a few hours of hearing time to
present their preliminary injunction case” to the
district court and were “forced to limit their evidence
to what they reasonably understood to be the
contested issues.” Id. at 1336. And in Alabama
Legislative Black Caucus v. Alabama, ––– U.S. ––––,
135 S. Ct. 1257, 191 L.Ed.2d 314 (2015), the Supreme
Court concluded that, under the circumstances at
issue, the evidence in the record was “strong enough
to lead the [plaintiff] reasonably to believe” that it
satisfied a requirement of standing and the defendant

42a

failed to argue otherwise, so “elementary principles of
procedural fairness” required the district court to
provide notice and an opportunity to respond before
deciding sua sponte that the plaintiff had not satisfied
that requirement. Id. at 1269.
Both Huntsville and Alabama Black Legislative
Caucus circumscribe the power of a court to consider
standing sua sponte without providing a plaintiff with
notice and an opportunity to respond, but these
precedents do not purport to speak to circumstances
like those of this appeal, in which the opposing party
raised the issue of standing. See Ala. Legislative Black
Caucus, 135 S. Ct. at 1269 (limiting the district court’s
authority to “act[ ] sua sponte” without first giving the
plaintiff “an opportunity to provide evidence” that it
satisfied the standing requirement at issue); Bischoff,
222 F.3d at 882 n.8 (explaining that Huntsville only
applied a “more lenient standard of review because
the standing issue was decided by the district court so
early in the case and without any notice to plaintiffs
that standing was at issue”). In Huntsville, our
analysis turned on the notion that “[i]t might well be
unfair ... to impose a standing burden beyond the
sufficiency of the ... pleadings on a plaintiff seeking a
preliminary injunction, unless the defendant puts the
plaintiff on notice that standing is contested,” at least
insofar as the plaintiff had little time to present his
case. 30 F.3d at 1336. In contrast, more than two years
elapsed between Wells Fargo’s filing of its motion for
summary judgment and the order granting it, so the
City had more than enough time to take any steps
necessary to ensure that it would be able to prove
standing. And Alabama Legislative Black Caucus
assumed that special notice was only necessary in a

43a

circumstance in which the plaintiff reasonably
believed that he had satisfied a requirement of
standing and the defendant had not argued the
contrary. 135 S. Ct. at 1269. But as we have explained,
Wells Fargo actively contested the City’s proof of
injury and causation, the very elements of standing
that we have determined the City failed to establish.
At oral argument, the City maintained that it would
be unfair to apply the summary-judgment standard
because the district court limited discovery to matters
related to loans originated within the limitation
period, but this contention fails too. Although
“summary judgment should not be granted until the
party opposing the motion has had an adequate
opportunity for discovery,” we have made clear that
“the party opposing the motion for summary judgment
bears the burden of calling to the district court’s
attention any outstanding discovery.” Snook v. Tr. Co.
of Ga. Bank of Savannah, N.A., 859 F.2d 865, 870–71
(11th Cir. 1988). Failure to satisfy this burden is fatal
to an argument that the district court granted
summary judgment prematurely by failing to order or
await the results of further discovery. See UrquillaDiaz v. Kaplan Univ., 780 F.3d 1039, 1063–64 (11th
Cir. 2015); Reflectone, Inc. v. Farrand Optical Co., 862
F.2d 841, 843–44 (11th Cir. 1989). By the same token,
no unfairness occurs if a plaintiff fails to advise the
district court of the need for further discovery to prove
standing at summary judgment and a circuit court
decides in the first instance that the plaintiff failed to
establish standing. In either circumstance, the
plaintiff has effectively consented to adjudication of
the issues raised in the summary-judgment motion
based on the existing record by failing to avail itself of

44a

the opportunity to seek further discovery. So the City’s
argument could prompt the application of a more
lenient standard in evaluating standing or remand for
additional discovery only if the City satisfied its
“burden of calling to the district court’s attention any
outstanding discovery” on the issue of standing.
Snook, 859 F.2d at 871.
The City failed to satisfy that burden. The preferred
vehicle for advising a district court of the need for
further discovery is an affidavit or declaration
submitted under Federal Rule of Civil Procedure
56(d). That Rule provides that “[i]f a nonmovant
shows by affidavit or declaration that ... it cannot
present facts essential to justify its opposition” to
summary judgment, “the court may (1) defer
considering the motion or deny it; (2) allow time to
obtain affidavits or declarations or to take discovery;
or (3) issue any other appropriate order.” To invoke
this Rule, a party “may not simply rely on vague
assertions that additional discovery will produce
needed, but unspecified facts,” but “must specifically
demonstrate how postponement of a ruling on the
motion will enable him, by discovery or other means,
to rebut the movant’s showing of the absence of a
genuine issue of fact.” Reflectone, 862 F.2d at 843
(citation and internal quotation marks omitted).
The City filed a declaration under Rule 56 at one point
in the litigation, but it did not mention standing, and
the City later retracted the declaration and opposed
Wells Fargo’s motion on the merits. The City
responded to Wells Fargo’s refiled motion for
summary judgment with a motion to strike or, in the
alternative, to stay or deny the motion to allow for

45a

additional discovery under Rule 56(d). The motion
argued that Wells Fargo had “attempt[ed] to turn a
partial motion for summary judgment limited to the
issue of the statute of limitations, into a fully briefed
motion for summary judgment that would decide the
entire case,” but neither the motion itself nor the
accompanying declaration mentioned the need for
additional discovery to produce evidence of standing
or otherwise clarify the basis of its objection to Wells
Fargo’s motion.
At a hearing conducted on July 20, 2017, the City
explained that its motion and declaration were
prompted by concerns that Wells Fargo’s motion had
raised “new business necessity defenses.” The City
conceded that if the only merits issue was “whether
there were loans issued in that two-year time period
where a minority was treated disparately and
adversely relative to a similarly situated white,” it
“ha[d] the data” to prevail, but it did not mention the
need for additional discovery to support standing.
When the district court intimated that the only merits
issue under consideration was the statute of
limitations and asked the City if it nonetheless needed
more discovery, the City said that the only “discovery”
it needed was for the district court to admit “the
supplemental declaration of Dr. Ayres.” After the
district court admitted the report into evidence, the
City changed course and opposed the motion for
summary judgment on the merits.
We have no difficulty concluding that the City failed
to “specifically demonstrate how postponement of a
ruling on the motion” would enable it, “by discovery or
other means, to rebut the movant’s showing of the

46a

absence of a genuine issue of fact.” Reflectone, 862
F.2d at 843 (citation and internal quotation marks
omitted). The City’s declaration under Rule 56(d) was
not sufficient for this purpose because it never even
mentioned the need for further discovery to support
standing. And although we have held that in limited
circumstances, “the interests of justice will sometimes
require a district court to postpone its ruling on a
motion for summary judgment even though the
technical requirements” of Rule 56(d) “have not been
met,” we have limited that exception to the
requirement to comply with Rule 56(d) to
circumstances in which “the nonmovant properly
apprised the district court of the outstanding
discovery request” through an equivalent form of
notice. Snook, 859 F.2d at 871; see also Reflectone, 862
F.2d at 844 (holding that the nonmovant was not
entitled to invoke the exception because it “did not
even make any motion to compel discovery” and “did
not raise the issue anywhere in its papers opposing
summary judgment”). The City’s later remarks to the
district court did not suggest that its request for
further discovery involved the need for additional
information to establish standing, so this exception
cannot apply. By withdrawing its opposition under
Rule 56(d) and opposing the motion for summary
judgment on the merits, the City acceded to the entry
of judgment on any issue raised in the motion for
summary judgment based on the existing record. And
even on appeal, the City has failed to provide us with
any explanation of how further discovery would have
enabled it to establish standing.
The City failed to satisfy its “burden of calling to the
district court’s attention any outstanding discovery”

47a

that might have been necessary to support its
standing, Reflectone, 862 F.2d at 844, so we cannot
conclude that it would be unfair to the City to require
it to establish standing under the standard ordinarily
applicable at summary judgment. Because we have
determined that the City has not satisfied that
standard, we conclude that the City has not
established “that a genuine issue of material fact
exists concerning standing.” Bischoff, 222 F.3d at 881
(citation and internal quotation marks omitted). The
district court should have dismissed the action for lack
of standing. The parties briefed the issue at summary
judgment, and it was clear that the City had no
evidence of injury or causation.

IV. CONCLUSION
We VACATE the summary judgment in favor of Wells
Fargo and REMAND with instructions to dismiss for
lack of subject-matter jurisdiction.
WILLIAM PRYOR, Circuit Judge,
BRANCH, Circuit Judge, concurring:

joined

by

Despite our earlier decision about the sufficiency of
the pleadings in a related case, see City of Miami v.
Wells Fargo & Co., 923 F.3d 1260 (11th Cir. 2019), it
would be difficult to overstate how misguided this
litigation has proved to be. For example, even if we
had jurisdiction to decide the merits of this appeal, we
would have to agree with the district court that Wells
Fargo is entitled to summary judgment. To explain
why, I recount below the City’s evidence of
discrimination and then explain that the City failed to

48a

create a genuine dispute of material fact with respect
to its disparate-treatment claim and that the City
abandoned any challenge to the summary judgment
against its disparate-impact claim.

A. The City’s Evidence of Discrimination.
The City’s principal evidence of discrimination was a pair of
reports prepared by its expert, Ian Ayres. The first report
concluded that “Wells Fargo issued loans to minority
borrowers in Miami Gardens between June 13, 2012 and June
12, 2014 ... that [were] more expensive or riskier than loans
issued to non-Hispanic white borrowers with similar
characteristics in Miami Gardens.” Ayres reached this
conclusion by conducting a matched-pair analysis using data
on 153 first-lien mortgages originated by Wells Fargo between
those dates.
To identify “high-cost loans,” Ayres relied on the standards
adopted by the Federal Financial Institutions Examination
Council under the Home Mortgage Disclosure Act, 12 U.S.C.
§§ 2801–11. Under the then-applicable regulation, 12 C.F.R.
pt. 203, app. A(I)(G)(1)(a) (2016) 12 C.F.R. pt. 203, app.
A(I)(G)(1)(a) (2016), rescinded by Home Mortgage
Disclosure, 82 Fed. Reg. 60673 (Dec. 22, 2017), a lender was
required to report the “rate spread” for a loan if the spread was
equal to or greater than 1.5 percentage points for a first-lien
loan. As Ayres explained, the “rate spread for a loan
origination is the spread between the Annual Percentage Rate
(APR) and a survey-based estimate of [Annual Percentage
Rates] offered on originated prime mortgage loans of a
comparable amortization type, interest rate lock-in date, fixed
term (loan maturity) or variable term (initial-fixed rate period),
and lien status.” “The survey-based estimates are referred to
as the ‘average prime offer rate’ ....” Using the regulatory

49a

threshold, Ayres classified a loan as high-cost if its rate spread
was equal to or greater than 1.5 percentage points. By this
standard, Ayres identified “seven High-Cost Loans in Wells
Fargo’s data, six of which were made to African-American
borrowers and one of which was made to [a] Hispanic
borrower.” No rate-spread reportable loans in the dataset were
made to non-Hispanic white borrowers.
From there, Ayres attempted to determine “whether a HighCost Loan was issued to a minority borrower whereas a nonHispanic white borrower with similar characteristics did not
receive a High-Cost Loan.” Because the “rate spread already
accounts for differences in the date of the loan’s rate lock, the
length of the loan term, and whether the loan was a fixed-rate
or [adjustable-rate mortgage] loan,” Ayres focused “only on
those core underwriting differences not accounted for in the
rate spread, such as occupancy status, [credit] score [as
determined through the Fair Isaac Corporation’s model], the
loan-to-value ratio (LTV), debt-to-income ratio (DTI), and the
underwriting history of bankruptcy, foreclosures, charge-offs,
collections, late payments, delinquencies, judgments, and
public records on the borrower’s credit report.”
After controlling for these variables, Ayres ultimately
identified two high-cost loans issued to minority borrowers—
labeled HC2 and HC6—that had a greater rate spread than a
loan issued to a non-Hispanic white, NHW8. HC2 is a loan
issued to a Hispanic borrower. The credit score for this
borrower is 712, the borrower’s loan-to-value ratio is 98
percent, and the borrower’s debt-to-income ratio is 47 percent.
HC6 is a loan to an African-American borrower with a credit
score of 741, a loan-to-value ratio of 98 percent, and a debtto-income ratio of 43 percent. NHW8, in contrast, is a loan
issued to a non-Hispanic white borrower with a credit score of
702, a loan-to-value ratio of 98 percent, and a debt-to-income
ratio of 41 percent. The rate spread for loan HC2 is 2.03
percent and its Annual Percentage Rate is 5.58 percent. The

50a

rate spread of loan HC6 is 1.58 percent and its Annual
Percentage Rate is 6.00 percent. But the rate spread of loan
NHW8 is 1.12 percent and its Annual Percentage Rate is 5.32
percent.
Based on his definition of relative loan cost in terms of the
rate-spread differential, Ayres determined that loans HC2 and
HC6 “were priced higher ... than Loan NHW8 that was
originated to a non-Hispanic white borrower with similar (and
in some cases, riskier) characteristics.” He explained that the
borrowers of loans HC2 and HC6 “had higher [credit] scores,
the same occupancy status, the same [loan-to-value ratios], the
same underwriting history of bankruptcy, foreclosures,
charge-offs, collections, late payments, delinquencies,
judgments, and public records on the borrower’s credit report,
but had slightly higher debt-to-income ratios than the Loan
NHW8 borrower.” Ayres concluded that the evidence was
“consistent with the hypothesis that Wells Fargo issued more
expensive loans to minority borrowers than non-Hispanic
white borrowers with similar characteristics even after
controlling for plausible and generally accepted business
justifications.”
In his rebuttal report, Bernard Siskin, the expert for Wells
Fargo, posited two alternative explanations of the rate-spread
discrepancy. First, he explained that the borrowers of loans
HC2 and HC6 “chose a higher note rate in exchange for
significant lender credits to be used at settlement to pay
closing costs,” but the borrower on loan NHW8 “received only
de minimis lender credits.” The borrower on loan HC2 opted
for $8,000 in lender credits—representing 7.34 percent of the
loan amount—and the borrower on HC6 opted for $1,878 in
lender credits—2.12 percent of the loan amount—but the
borrower on loan NHW8 opted for only $479 in lender
credits—equal to 0.38 percent of the loan amount. Second,
Siskin argued that Ayres “fail[ed] to account for the fact that
the white borrower received a loan during the two-week period

51a

when a promotional pricing discount was applied to all
conventional and government purchase loans.” As a result of
its origination date, NHW8 “received a 50 basis points pricing
discount.”
Based on data provided by an official of Wells Fargo named
Jill Hunt, Siskin calculated the hypothetical rate spread and
Annual Percentage Rate on each of these loans after
controlling for the effects of lender credits and the promotional
discount. Hunt attested that the note rate of NHW8 would have
been 0.125 percent higher if the pricing discount had not been
applied, which led Siskin to conclude that zeroing that
discount would yield an Annual Percentage Rate of 5.4431
percent and a rate spread of 1.25 percent. Hunt also stated that
if the borrowers on loans HC2 and HC6 had elected not to
receive lender credits, the note rate on the loans would have
been 3.25 and 4.125 percent, respectively. Based on these
numbers, Siskin calculated that, “[a]ssuming the lender credits
were all applied to fees included in the [Annual Percentage
Rate] computation and the calculation of the [Annual
Percentage Rate] did not include the fees paid with lender
credit,” zeroing the lender credits elected by HC2 would result
in an Annual Percentage Rate of 4.71 percent and a rate spread
of 1.16. With respect to HC6, the same calculation yielded an
Annual Percentage Rate of 5.86 percent and a rate spread of
1.44 percent.
So under the analysis conducted by Ayres, HC2 has an Annual
Percentage Rate of 5.58 percent and a rate spread of 2.03
percent, HC6 has an Annual Percentage Rate of 6.00 percent
and a rate spread of 1.58 percent, and NHW8 has an Annual
Percentage Rate of 5.32 percent and a rate spread of 1.12
percent. But eliminating the promotional discount and zeroing
the lender credits on loans HC2 and HC6 yields an Annual
Percentage Rate of 4.71 percent and a rate spread of 1.16 for
loan HC2, an Annual Percentage Rate of Annual Percentage
Rate of 5.86 percent and a rate spread of 1.44 percent for loan

52a

HC6, and an Annual Percentage Rate of 5.4431 percent and a
rate spread of 1.25 percent for loan NHW8. Under Siskin’s
analysis, loan HC2 is slightly cheaper than NHW8 by 0.09
percent and HC6 is more expensive than NHW8 by 0.19
percent.
In his supplemental report, Ayres argued that Siskin’s
calculations were distorted by his apparent failure to zero the
lender credits received by NHW8. As Ayres explained, Siskin
did not “explicitly state whether his calculation of the
hypothetical rate spread for NHW8 includes the actual lender
credits or whether he assumes a hypothetical lender credit of
zero.” Instead, Siskin’s report only “provide[d] the
hypothetical note rate and [Annual Percentage Rate] that
would have been offered on [HC2 and HC6] if no lender credit
had been provided or no promotional pricing discount had
been offered,” and failed to “provide[ ] the note rate that would
have been offered for loan NHW8 if no lender credit had been
provided to that borrower.”
Despite this alleged insufficiency, Ayres constructed
hypothetical comparisons of the rate spreads of loans HC2,
HC6, and NHW8 on the assumption that “NHW8’s lender
credits remain $479 in Dr. Siskin’s hypothetical rate spread
calculation.” Ayres “attempted to replicate Dr. Siskin’s
calculations under the incomplete hypothetical scenario in
which HC6 received no lender credit (and their note rates
adjusted accordingly to the note rates specified by Ms. Hunt),
NHW8 continued to receive a lender credit, and neither loan
received the 50 basis point promotional discount allegedly
given to loan NHW8.” He applied the same procedure to
develop a comparison of loans HC2 and NHW8. But Ayres
departed from Siskin’s method in one key respect. Ayres
faulted Siskin for failing to “control for the difference in
[Federal Housing Administration] Mortgage Insurance
Premiums (“MIP”) policies that were in place at the times HC2
and NHW8 were originated.” Because “HC2 was originated in

53a

November 2012, whereas NHW8 was originated in December
2013” and “the government increased the cost and duration of
[mortgage insurance premiums] in April 2013 and June 2013,”
Ayres projected that “adjusting for the differences in
[mortgage insurance premiums] policies would serve to
increase the difference between the rate spreads of HC2 and
NHW8.” So Ayres attempted to control for the difference in
mortgage-insurance premium costs.
Ayres’s analysis yielded somewhat different results from
Siskin’s. Ayres calculated the Annual Percentage Rates of
HC2, HC6, and NHW8 as 5.4118 percent, 5.9560 percent, and
5.4448 percent, respectively. He deduced a rate spread of 1.86
percent for loan HC2, 1.54 percent for loan HC6, and 1.25
percent for loan NHW8. So although Ayres agreed with
Siskin’s conclusion that the hypothetical rate spread of NHW8
would equal 1.25 percent, Ayres’s estimates of the rate spreads
for HC2 and HC6 were higher than Siskin’s estimates of 1.16
percent and 1.44 percent. Under Ayres’s projections, HC2 is
more expensive than NHW8 by 0.61 percent and HC6 is more
expensive than NHW8 by 0.29 percent. The results of each
expert analysis are replicated in the following table:

54a

The City’s only other evidence of discrimination was
the declaration of a former Wells Fargo loan officer
named Alvaro Orozco who worked for Wells Fargo for
a “very short period of time in 2010,” before the
limitation period began. Orozco attested that when he
worked for Wells Fargo, his manager told him “to push
borrowers into certain types of loans” that were more
expensive than other loans for which he believed
borrowers might be eligible. Orozco also asserted that

55a

“Wells Fargo’s desire to sell government loans ... hit
African-American and Hispanic borrowers the
hardest,” and he conjectured that “if AfricanAmerican or Hispanic borrowers in a community
received loans with higher rate spreads than similarly
situated non-Hispanic Caucasian borrowers, that
result would be consistent with a bank’s decision to
target African-American or Hispanic borrowers for
more expensive mortgage loans.”

B. The City Failed to Create a Genuine Dispute of
Material Fact with Respect to Its DisparateTreatment Claim.
“Disparate treatment claims require proof of
discriminatory intent either through direct or
circumstantial evidence.” Equal Emp’t Opportunity
Comm’n v. Joe’s Stone Crab, Inc., 220 F.3d 1263, 1286
(11th Cir. 2000). Proof of intent by circumstantial
evidence relies on the burden-shifting framework of
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93
S.Ct. 1817, 36 L.Ed.2d 668 (1973). See Sec’y, U.S.
Dep’t of Hous. & Urban Dev. v. Blackwell, 908 F.2d
864, 870 (11th Cir. 1990) (holding that the “test
developed in McDonnell Douglas” governs suits
brought under the Fair Housing Act). Under this
framework, “the plaintiff bears the initial burden of
establishing a prima facie case of discrimination.”
Lewis v. City of Union City, 918 F.3d 1213, 1217 (11th
Cir. 2019) (en banc). “If the plaintiff succeeds in
making out a prima facie case, the burden shifts to the
defendant
to
articulate
a
legitimate,
nondiscriminatory reason for its actions.” Id. at 1221.
“[S]hould the defendant carry its burden, the plaintiff

56a

must then demonstrate that the defendant’s proffered
reason was merely a pretext for discrimination.” Id.
This burden “merges with the ultimate burden of
persuading the court that she has been the victim of
intentional discrimination.” Id. (alterations omitted)
(quoting Tex. Dep’t of Cmty. Affairs v. Burdine, 450
U.S. 248, 256, 101 S.Ct. 1089, 67 L.Ed.2d 207 (1981)).
The “elements of a prima facie case are flexible and
should be tailored ... to differing factual
circumstances.” Fitzpatrick v. City of Atlanta, 2 F.3d
1112, 1123 (11th Cir. 1993) (citation and internal
quotation marks omitted). In this appeal, a prima
facie case of intentional discrimination required proof
that (1) the borrower was a member of a protected
class, (2) the borrower applied for and was qualified to
receive loans from the defendant, and (3) the loan was
offered on less favorable terms than a loan offered to
a similarly situated person who was not a member of
the borrower’s class. Cf. McDonnell Douglas, 411 U.S.
at 802, 93 S.Ct. 1817. A plaintiff and a comparator are
“similarly situated” under McDonnell Douglas if they
are “similarly situated in all material respects.”
Lewis, 918 F.3d at 1226 (internal quotation marks
omitted).
The district court ruled that the City failed to
establish a prima facie case because the borrowers of
HC2 and HC6 are not similarly situated to the
borrower of NHW8. It concluded that the loans were “
‘apples and oranges’ that cannot be compared”
because “the borrowers elected different structures to
either finance closing costs over time or pay them at
the outset” and NHW8 received a promotional
discount. The district court refused “to consider Dr.

57a

Ayres’s efforts to extrapolate what the [Annual
Percentage Rate] would be on HC2 and HC6 without
the lender credits” because the credits were “simply a
term of the loan that [the] Court cannot ignore.” In the
alternative, the district court ruled that even if the
City could establish a prima facie case, it failed to
establish pretext because Ayres’s “method of
comparison also reveal[ed] situations in which Wells
Fargo originated loans to minority borrowers that
were less expensive than loans issued to white
borrowers,” undermining any inference that the
difference in loan cost posited by Ayres was caused by
an intent to discriminate.
The City argues that the district court erred by
refusing to credit Ayres’s calculation of the Annual
Percentage Rate and rate spread for each loan after
controlling for lender credits and the promotional
discount because it is possible to prove a prima facie
case of discrimination in this context merely by
establishing that “one more expensive or riskier loan
[was] given to a minority borrower.” Interpreted
charitably, the City’s argument is that the discount
and lender credits had an ascertainable impact on the
bottom-line cost of the loans in question, so it was
possible, using Ayres’s methodology, to control for the
effect of those differences on the rate spread of each
loan and determine whether the loans issued to
minority borrowers were more costly than NHW8. In
the City’s view, the continued existence of a cost
disparity between loans HC2 and HC6 and loan
NHW8 after controlling for lender credits and the
discount supports a reasonable inference that the
most likely explanation of the residual cost difference
is the race or ethnicity of the borrowers, which suffices

58a

to establish a prima facie case. See Furnco Const.
Corp. v. Waters, 438 U.S. 567, 577, 98 S.Ct. 2943, 57
L.Ed.2d 957 (1978) (“A prima facie case under
McDonnell Douglas” must establish that the
challenged acts, “if otherwise unexplained, are more
likely than not based on the consideration of
impermissible factors.”).
This Circuit has never held that a plaintiff can
establish that individuals are similarly situated by
reductively analyzing apparent differences between
them in terms of a common metric of comparison, but
even if we assume that a plaintiff can do so, we should
nevertheless conclude that the City failed to establish
an inference of discriminatory intent. Wells Fargo
volunteered “legitimate, nondiscriminatory reason[s]
for its actions,” Lewis, 918 F.3d at 1221, namely (1)
the difference in lender credits, and (2) the availability
of the promotional discount, so “the inquiry proceeds
to a new level of specificity” at which “the plaintiff
must show the ... proffered reason[s] to be a pretext
for unlawful discrimination.” Smith v. LockheedMartin Corp., 644 F.3d 1321, 1326 (11th Cir. 2011)
(citation and internal quotation marks omitted). To
establish pretext, the plaintiff must produce evidence
sufficient to support a reasonable inference “that a
discriminatory reason more likely motivated” the
defendant or that the defendant’s “proffered
explanation is unworthy of credence.” Burdine, 450
U.S. at 256, 101 S.Ct. 1089. But under either avenue
of proof, the ultimate question is “whether the
evidence ... yields the reasonable inference that the
[defendant] engaged in the alleged discrimination.”
Smith, 644 F.3d at 1326.

59a

The City failed to establish a reasonable inference
that a discriminatory motive accounted for the cost
differential between loans HC2 and HC6 and loan
NHW8. Even if the lender-credits and promotionaldiscount explanations failed to account for the totality
of the cost difference between HC2 and HC6 on the
one hand and NHW8 on the other, it is undisputed
that Wells Fargo also issued two loans to minority
borrowers similarly situated to the borrower on loan
NHW8 that were less expensive than NHW8. These
loans, ML1 and ML2, were Federal Housing
Administration purchase loans issued to minority
borrowers who had, respectively, credit scores of 671
and 693, loan-to-value ratios of 98 percent, and debtto-income ratios of 46.3 percent and 41.1 percent. The
borrower of NHW8 had a credit score of 702, a loan-tovalue ratio of 98 percent, and a debt-to-income ratio of
41 percent. Although the underwriting characteristics
of the borrower of NHW8 are similar to those of the
borrowers of ML1 and ML2 under Ayres’s criteria, the
rate spreads of ML1 and ML2 are 0.74 percent and
0.94 percent while the rate spread of NHW8 is 1.12
percent.
As the district court correctly ruled, this evidence
precludes any inference “that a discriminatory reason
more likely motivated” Wells Fargo. Burdine, 450 U.S.
at 256, 101 S.Ct. 1089. Apart from the declaration of
Orozco—which, as discussed below, provides no
support for the City’s position—the City’s case for
disparate treatment is based entirely on the theory
that one can rationally infer that intentional
discrimination explains the residual cost discrepancy
between loans HC2 and HC6 and loan NHW8. But
this theory of intentional discrimination cannot

60a

account for the existence of nonminority borrowers
who received more costly loans than similarly situated
minorities. If Wells Fargo priced membership in a
minority race or ethnicity into its loans, one would
expect that minority borrowers would be
systematically charged more than non-Hispanic white
borrowers. But the evidence does not bear out that
prediction. Indeed, the City’s theory of intentional
discrimination is less accurate than a competing
hypothesis of random variation in pricing because
that explanation would at least potentially account for
the existence of loans both more and less favorable to
minorities. The City’s theory renders the existence of
the former class of loans inexplicable.
The City does not attempt to establish pretext by
arguing that Wells Fargo’s “proffered explanation[s]
[are] unworthy of credence,” id., and with good reason.
True, Ayres’s hypothetical calculations of the rate
spreads of HC2, HC6, and NHW8, may allow a
reasonable inference that the lender credits and
discount fail to explain the entirety of the cost
discrepancy, as Wells Fargo maintained. But although
“a plaintiff’s prima facie case, combined with
sufficient evidence to find that the [defendant’s]
asserted justification is false, may permit the trier of
fact to conclude that the [defendant] unlawfully
discriminated,” that proof will not “always be
adequate to sustain a jury’s finding of liability.”
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S.
133, 148, 120 S.Ct. 2097, 147 L.Ed.2d 105 (2000). The
issue on summary judgment is whether a genuine
dispute of material fact exists, and there are
“instances where, although the plaintiff has
established a prima facie case and set forth sufficient

61a

evidence to reject the defendant’s explanation, no
rational factfinder could conclude that the action was
discriminatory.” Id. As I have explained, this appeal
is one of those instances because of the
“uncontroverted independent evidence” that Wells
Fargo’s lending behavior produced unexplained cost
discrepancies favorable to minority borrowers as well
as one favorable to a nonminority borrower. Id.
The City also argues that the district court should
have considered Orozco’s affidavit and the testimony
of a Wells Fargo executive named Mary Woodward,
but this evidence does nothing to improve the City’s
position. Orozco attested that his manager told him
“to push borrowers into certain types of loans,” such
as Federal Housing Administration loans, instead of
other loans that might be cheaper. He also opined that
“if African-American or Hispanic borrowers in a
community received loans with higher rate spreads
than similarly situated non-Hispanic Caucasian
borrowers, that result would be consistent with a
bank’s decision to target African-American or
Hispanic borrowers for more expensive mortgage
loans.” But Orozco did not provide any reason to
believe that Wells Fargo “targeted” African-American
or Hispanic borrowers for more expensive loans any
more than they targeted members of other racial or
ethnic groups. Indeed, he admitted that he was
instructed to push borrowers into more expensive
loans not because of their race, but “because these
loans made more money for the bank and were easier
to sell on the secondary market.” So his affidavit
provides no basis for an inference of intent.
Woodward testified only that she was unaware of any

62a

analysis prepared by Wells Fargo’s Internal Audit
Department or any other department of the bank
concerning allegations of violations of fair-lending
laws and did not know of any reports, memoranda, or
other written documents regarding the results of
internal investigations into compliance with such
laws. The ignorance of a single Wells Fargo executive
about whether the bank had conducted any internal
investigation into its compliance with fair-lending
laws does not support an inference of discriminatory
intent at all, so this testimony adds nothing to the
City’s case. At bottom, even if one were to consider all
of its evidence, the City failed to establish a genuine
issue of material fact.

C. The City Abandoned Any Challenge to the District
Court’s Ruling on its Disparate-Impact Claim.
Disparate-impact liability under the Fair Housing Act
requires proof that a policy or practice of the
defendant has “a ‘disproportionately adverse effect on
minorities,’ ” Tex. Dep’t of Hous. & Cmty. Affairs v.
Inclusive Cmtys. Project, ––– U.S. ––––, 135 S. Ct.
2507, 2513, 192 L.Ed.2d 514 (2015) (quoting Ricci v.
DeStefano, 557 U.S. 557, 577, 129 S.Ct. 2658, 174
L.Ed.2d 490 (2009)), for which a prima facie case has
three distinct elements. First, a prima facie case
requires “the identification of a specific, faciallyneutral ... practice” or policy. Joe’s Stone Crab, 220
F.3d at 1268; see also Inclusive Cmtys., 135 S. Ct. at
2523 (holding that “a disparate-impact claim” under
the Fair Housing Act “must fail if the plaintiff cannot
point to a ... policy or policies”). Second, the plaintiff
must establish the existence of a “significant

63a

statistical disparity” between the effects of the
challenged policy or practice on minorities and nonminorities. Joe’s Stone Crab, 220 F.3d at 1274. Third,
in the light of the “serious constitutional questions
that might arise ... if such liability were imposed based
solely on a showing of statistical disparity,” a plaintiff
proceeding on a disparate-impact theory must also
establish a “robust causality” connecting the
challenged policy and the statistical disparity.
Inclusive Cmtys., 135 S. Ct. at 2512. “A plaintiff who
fails to ... produce statistical evidence demonstrating
a causal connection cannot make out a prima facie
case of disparate impact.” Id. at 2523.
The district court ruled that the City failed to produce
sufficient evidence with respect to the statisticaldisparity and causation elements of its claim. The
district court interpreted the City’s claim as a
challenge to (1) Wells Fargo’s Product Validation
Process, which “examines borrowers to determine if
they are eligible for less expensive loans,” and (2)
Wells Fargo’s “practice of allowing lender credits on
certain [Federal Housing Authority] loans,” which
purportedly was “a vehicle for differential pricing.”
The City’s principal evidence of disproportionate
effect was Ayres’s reports, which identified two loans
issued to minorities that allegedly were more
expensive than loans issued to a similarly situated
white borrower. The district court rejected the City’s
contention that these loans supported an inference of
a disproportionate adverse impact on minority
borrowers because “[t]wo loans, even assuming they
were more expensive, is insufficient record evidence to
show the policies produced statistically-imbalanced
lending patterns.” The district court also ruled that

64a

the City failed to produce any “evidence of the robust
causation needed to show the polic[ies] caused the
statistical disparity.”
The City argues that it was error for the district court
to require evidence of a statistical disparity because
its burden was only to “identify at least one loan in the
[limitation] period that exemplifies the discriminatory
practice pleaded by the City,” but the City does not so
much as attempt to challenge the district court’s
alternative ruling on the causality element. So the
City abandoned any challenge to the district court’s
ruling on its disparate-impact claim. As we have
explained, “[w]hen an appellant fails to challenge
properly on appeal one of the grounds on which the
district court based its judgment, he is deemed to have
abandoned any challenge of that ground, and it
follows that the judgment is due to be affirmed.”
Sapuppo v. Allstate Floridian Ins. Co., 739 F.3d 678,
680 (11th Cir. 2014).
The district court was also right to conclude that the
City produced no evidence of causation. Even if one
grants the City’s tendentious assumption that the two
loans identified by Ayres suffice to establish “a
disproportionately adverse effect on minorities,”
Inclusive Cmtys., 135 S. Ct. at 2513 (citation and
internal quotation marks omitted), the City never
pointed to any evidence that even suggests that Wells
Fargo’s policies caused this disparity in loan cost. For
all we can infer from the evidence, the putative
divergence in cost is attributable to ad hoc decisions,
rounding errors, small differences between the
borrowers, or factors not accounted for in Ayres’s
analysis. So even if the City had not abandoned its

65a

disparate-impact claim, its failure to come forward
with anything more than groundless speculation that
a Wells Fargo policy must account for the cost
discrepancy is fatal to its claim.
Even if one ignores these glaring problems with the
City’s position and considers the merits of its
challenge to the district court’s ruling on the
statistical-disparity element, the City comes up short.
The City faults the district court for concluding that
the two loans identified by Ayres failed to establish a
violation on a disparate-impact theory. The City
argues that under the continuing-violation doctrine
its only “task [was] to identify at least one loan in the
[limitation] period that exemplifies the discriminatory
practice pleaded by the City.” But to invoke the
continuing-violation doctrine, a plaintiff must
establish that a violation of the Act occurred in the
limitation period. See Hipp v. Liberty Nat’l Life Ins.
Co., 252 F.3d 1208, 1221 (11th Cir. 2001). And under
a disparate-impact theory of liability, proof of a
violation requires the plaintiff to establish that the
challenged policy produced a “significant statistical
disparity,” Joe’s Stone Crab, 220 F.3d at 1274; see also
Ricci, 557 U.S. at 587, 129 S.Ct. 2658 (“[A] prima facie
case of disparate-impact liability” is “essentially, a
threshold showing of a significant statistical
disparity.”).
The City failed to present any evidence of a statistical
correlation between the race of a borrower and the
cost of the loan Wells Fargo would issue to him under
its existing policies. Ayres never conducted a
statistical analysis of whether Wells Fargo’s lending
practices disproportionately impacted minorities.

66a

Indeed, he stated that he would forgo any attempt to
analyze the “disparate impact of Wells Fargo’s
mortgage lending,” but would “prepare a detailed
analysis” if the case survived the summary-judgment
stage. So even if the City had not abandoned its
disparate-impact claim or failed to produce any
evidence of causation, the City still would have failed
to create a genuine issue of material fact with respect
to this claim.

67a

APPENDIX C
328 F.Supp.3d 1369
United States District Court, S.D. Florida,
Miami Division.
CITY OF MIAMI GARDENS, Plaintiff,
v.
WELLS FARGO & CO. and Wells Fargo Bank, N.A.,
Defendants.
Case Number: 14-22203-CIV-MORENO
|
Signed 06/29/2018
Attorneys and Law Firms
Christina M. Black, Patrick F. Madden, Sarah
Schalman-Bergen, Sherrie R. Savett, Russell D. Paul,
Berger & Montague, P.C., Philadelphia, PA, D.
Porpoise Evans, Joshua B. Spector, Perlman,
Bajandas, Yevoli & Albright, P.L., Miami, FL, Daniel
E. Seltz, John T. Nicolaou, Rachel Geman, Lieff
Cabraser Heimann & Bernstein, LLP, New York, NY,
Joel Liberson, Trial & Appellate Resources, P.C., El
Segundo, CA, Kelly Dermody, Lieff Cabraser
Heimann & Bernstein, Yosef Peretz, Peretz &
Association, San Francisco, CA, Robert S. Peck,
Center for Constitutional Litigation, P.C., Fairfax
Station, VA, Sonja Knighton Dickens, City of Miami
Gardens, Miami Gardens, FL, for Plaintiff.
Paul F. Hancock, Olivia Rae Waters Kelman, K & L
Gates LLP, Carol Ann Licko, Clayton Paul Solomon,
James Leo Vanlandingham, John F. O’Sullivan,
Hogan Lovells US LLP, Dwayne Antonio Robinson,
Kozyak Tropin & Throckmorton LLP, Miami, FL,

68a

Andrew C. Glass, K & L Gates, LLP, Boston, MA, for
Defendants.
ORDER GRANTING DEFENDANT’S MOTION
FOR SUMMARY JUDGMENT
FEDERICO A. MORENO,
DISTRICT JUDGE

UNITED

STATES

Born out of the assassination of Dr. Martin Luther
King, Jr. in 1968, the Fair Housing Act addressed the
denial of housing opportunities on the basis of race,
color, religion, or national origin. Half a century later,
the City of Miami Gardens is invoking the law to
remedy discriminatory lending by Defendant Wells
Fargo. The City contends that discriminatory lending
persists even amidst the changes in lending practices
implemented since the Great Recession. The theory of
its case is that discriminatory loans in Miami Gardens
have defaulted at greater rates, causing foreclosures,
and reducing property values in the City, which, in
turn, impacts the City’s property tax revenue. At the
outset of this case, the Court identified the Fair
Housing Act’s applicable statute of limitations and the
threshold issue: whether Wells Fargo issued any
predatory loans or discriminatory loans during the
limitations period in Miami Gardens that violated the
Fair Housing Act. If the City can show a Fair Housing
Act violation during the limitations period, the
continuing violations doctrine allows it to recover for
past violations.
At summary judgment, the parties agree that despite
the allegations in the Third Amended Complaint,
Wells Fargo did not issue any predatory loans to
minorities in Miami Gardens during the limitations

69a

period. That leaves the question of whether there were
any other discriminatory loans, i.e. did Wells Fargo
make loans to minorities that were more expensive
than loans to non-minorities during the limitations
period. To make that showing, the City must satisfy
the prima facie case for disparate impact or disparate
treatment
discrimination.
Because
there
is
insufficient record evidence to support a claim for
disparate impact, the parties’ summary judgment
pleadings focus on whether the City can make a
showing of disparate treatment discrimination.
For a prima facie showing of disparate treatment, the
City of Miami Gardens must set forth evidence of loan
comparators that are similarly situated. The loans
identified by the City’s expert, Dr. Ian Ayres, have
different origination dates, different lender credits,
and different promotional offerings, all factors
affecting the loan price. Accordingly, the Court grants
Wells Fargo’s motion for summary judgment because
the City cannot make a prima facie showing of
disparate treatment during the limitations period.
Even if the City could make the necessary showing,
Wells Fargo has sufficiently established legitimate
nondiscriminatory reasons for the difference in the
loan pricing. Finally, the record evidence is
insufficient to establish Wells Fargo’s reasons are
pretextual.
THIS CAUSE came before the Court upon
Defendant’s Motion for Summary Judgment (D.E.
162), filed on May 31, 2018.
THE COURT has considered the motion, the
response, the supplemental briefing, the pertinent

70a

portions of the record, and being otherwise fully
advised in the premises, it is
ADJUDGED that the motion is GRANTED.
I. Background
A. Procedural History of this Case and Past Rulings
Plaintiff, the City of Miami Gardens, is suing Wells
Fargo for intentional lending discrimination and
disparate impact discrimination in violation of the
Fair Housing Act. The crux of the claim is that the
loans made to white borrowers in Miami Gardens
were less expensive than loans made to AfricanAmerican and Hispanic borrowers. Miami Gardens
argues that because the loans to minority borrowers
were more expensive, they resulted in defaults, and
foreclosures, which in turn lowered property values
and decreased the City’s tax revenue.
The Court issued an order requiring an amended
complaint in this case on October 1, 2014. In that
Order, the Court dismissed the 57-page complaint and
required the City of Miami Gardens to specify exact
violations of the Fair Housing Act in Miami Gardens.
“The Complaint should state what specific predatory
practices occurred in Miami Gardens and how
minorities were allegedly targeted there.... The second
amended complaint must be precise in detailing (1)
how Miami Gardens is injured, (2) how that injury is
traceable to the conduct of each Wells Fargo
defendant, and (3) how the injury can be redressed
with a favorable decision in this case.” The case was
subsequently stayed pending resolution of City of
Miami v. Bank of America Corp., 800 F.3d 1262 (11th

71a

Cir. 2015), which addressed whether a city had
standing to sue under the Fair Housing Act. Following
the Eleventh Circuit’s decision, the Court reopened
this case.
Next, this Court bifurcated discovery, allowing
limited discovery on the narrow issue of whether there
were loans during the two-year statute of limitations,
June 13, 2012 to June 12, 2014, that violated the Fair
Housing Act. This is a threshold issue in the case
because under Havens Realty Corp. v. Coleman, 455
U.S. 363, 102 S.Ct. 1114, 71 L.Ed.2d 214 (1982) there
could no continuing violation if there was none during
the limitations period. At the conclusion of the limited
discovery, Wells Fargo moved for summary judgment
arguing that none of the 153 loans originated between
June 13, 2012 and June 12, 2014, violated the Fair
Housing Act. That is the motion at issue now before
this Court.
While the motion for summary judgment was
pending, this Court again stayed this case when the
Supreme Court granted certiorari on the City of
Miami case. The Supreme Court addressed the issue
of standing in this context and held cities are
“aggrieved persons” with standing to sue for damages
under the Fair Housing Act. Bank of America Corp. v.
City of Miami, ––– U.S. ––––, 137 S.Ct. 1296, 1302,
197 L.Ed.2d 678 (2017). The Supreme Court added
that to recover damages the city must do more than
show that its injuries foreseeably flowed from the
alleged statutory violation. Id. Consistent with the
Supreme Court’s direction, the Court of Appeals is
now deciding the “contours of proximate cause under
the Fair Housing Act and how it applies in these

72a

cases.” This case remained stayed during the
pendency of the Supreme Court decision given the
dispositive nature of the standing issue, but this Court
reopened this case once the Supreme Court found
standing. Wells Fargo’s position in this case is that the
Eleventh Circuit’s decision regarding proximate cause
does not affect this case, where its motion for
summary judgment is pending. The Court agrees with
Wells Fargo as the procedural trajectory of this case
differs from the City of Miami case as the question
before the Court is whether the record evidence
establishes a violation of the Fair Housing Act during
the Limitations Period. At this juncture, the Court
does not need to decide the pleading requirements of
proximate cause in the context of a Fair Housing Act
complaint.1
Currently pending before the Court are Wells Fargo’s
Motion for Summary Judgment and supplemental
briefs filed by both sides. The summary judgment
motion argues that Miami Gardens lacks evidence of
discriminatory loans and evidence of foreclosures
attributable to those loans, during the statute of
limitations period, June 13, 2012 to June 12, 2014.
B. Factual Background
The record shows a total of 153 loans secured by
properties in Miami Gardens during the limitations
period, including 130 loans to minority borrowers and
8 loans to non-Hispanic white borrowers. They were
divided between conventional loans and government
loans, stemming from the Federal Housing
Administration program. The loans at issue in this
motion for summary judgment are all government
FHA purchase loans.

73a

The City’s Third Amended Complaint states that
Wells Fargo “steered” minorities into certain types of
predatory loans when the borrowers qualified for
better terms. The Third Amended Complaint lists 12
types of loans, including high-cost loans, subprime
loans, interest-only loans, balloon payment loans,
loans
with
prepayment
penalties,
negative
amortization loans, no documentation loans, higher
cost government loans (including FHA and VA loans),
*1375 home equity lines of credit, and adjustable rate
mortgages with teaser rates where the lifetime
maximum rate is greater than the initial rate plus 6%.
The record shows that of the 153 loans made during
the limitations period, the only loans at issue are the
government refinance loans under the FHA program,
and loans that have to be reported under the Home
Mortgage Disclosure Act, known as rate-spread
reportable loans.2
To support its claims, the City provided the testimony
of its City Manager, Cameron Benson, as a Rule
30(b)(6) representative. Benson did not identify any
discriminatory, or predatory loans. He also could not
identify borrowers in Miami Gardens, who received
more expensive loans when they qualified for better
financing.3 Benson also could not identify any
minority borrowers, who received Wells Fargo loans
that were made on different terms than loans to white
borrowers. Benson also had no information to support
the allegations in paragraph 76 of the Third Amended
Complaint,
which
identifies
four
addresses
corresponding to predatory loans in Miami Gardens.
In answering interrogatories regarding predatory
loans, the City listed the four addresses identified in
paragraph 76 of the Third Amended Complaint.

74a

In addition, the City did not provide evidence that any
residents complained about these types of loans in
Miami Gardens. Community Development Director,
Laurin Yoder, and City Manager Benson were not
aware of any complaints made to the City by any
borrowers about any of the 153 loans made during the
limitations period.
1. Loans at Issue
In the initial summary judgment briefing, the City
pointed to four loans issued in Miami Gardens during
the limitations period that violated the Fair Housing
Act. After oral argument and in the supplementary
briefing, the City focuses on two loans that it claims
violated the Fair Housing Act during the limitations
period.
The City’s expert, Dr. Ian Ayres, presents two
matched pairs of loans that he claims are suitable for
comparison. The first matched pair is loan HC6 and
loan NHW8. HC6 is an FHA purchase loan made to an
African-American borrower. The FICO score for this
borrower is 741, the borrower’s loan-to-value ratio is
98%, and the borrower’s debt-to-income ratio is 43%.
Loan NHW8 is also an FHA purchase loan to a white
borrower. That borrower on loan NHW8 has a lower
FICO score of 702, the same loan-to-value ratio (98%),
and the borrower’s debt-to-income ratio is 41%. The
actual APR for HC6 is 5.9978% resulting in a rate
spread of 1.58%, and the actual APR for NHW8 is
5.3181% resulting in a rate spread of 1.12%. The City’s
position is that the minority borrower received a ratespread reportable high-cost loan (HC6) whereas a

75a

non-Hispanic white borrower received a lower cost
loan (NHW8).
Dr. Ayres identifies a second matched pair, HC2
(minority loan) and NHW8 (non-minority loan). HC2
is an FHA purchase loan made to a Hispanic borrower,
whose FICO score is 712, the loan-to-value ratio is
98%, and borrower’s debt-to-income ratio is 41%. Dr.
Ayres indicates that HC2 has a rate spread of 2.03%,
and NHW8 has *1376 a rate spread of 1.12%. The
City’s position is that HC2 is a higher cost loan than
NHW8. HC2 experienced delinquencies, while NHW8
did not. Although HC2 suffered delinquencies, it did
not result in foreclosure.
Wells Fargo’s expert, Dr. Bernard Siskin, contends
there are two reasons why loans HC6 and HC2 are not
similarly situated to loan NHW8 and should not be
deemed matched pairs. Namely, HC2 and HC6
received lender credits to defray closing costs at the
outset of the loan in exchange for a higher interest
rate. In addition, the borrower on loan NHW8 received
a promotional 50 basis point pricing discount that
Wells Fargo offered to all loans, government and
conventional, originated during October 21, 2013 and
November 4, 2013, in the Miami or Fort Lauderdale
Metropolitan Divisions. That promotion was not
available when loans HC2 and HC6 originated. Dr.
Siskin also differentiates the loans because the federal
government increased FHA annual mortgage
insurance premiums due to a higher incidence of ratespread reportable lending. For example, HC2
originated in November 2012 and NHW8 originated in
December 2013 after the government increased the
cost of mortgage insurance premiums earlier during
2013. This is another factor that influenced pricing.

76a

Dr. Ayres suggests that this is a reason why loan
NHW8 should have been more expensive than HC2
because of the increased insurance requirement.
Dr. Siskin explains that in both matched pairs of
loans, the minority borrowers chose to receive a higher
rate of interest in exchange for a lender credit to pay
for expenses associated with closing the loan. Lender
credits occur when a borrower elects to have a higher
interest rate, and the bank gives the borrower a credit
for the fees necessary to pay what they would
otherwise have to pay out-of-pocket at closing. For
loan HC2, the minority borrower received $8,000 in
lender credits and for HC6, the minority borrower
elected to receive $1,878 in lender credits, whereas the
non-minority borrower for loan NHW8 received $479
in lender credits to cover closing costs. The City’s
position at summary judgment is that Wells Fargo has
not met its burden to show how the lender credits
numerically affect the APR (annual percentage rate).
Dr. Ayres recalculated the hypothetical APR’s that
loan HC2 and NHW8 would have received if HC2 did
not receive the lender credits in the amount of $8,000,
and NHW8 did not receive the promotional pricing.
Under his hypothetical scenario, the APR for loan
HC2 would be 5.4118% with a corresponding rate
spread of 1.86% and for NHW8, the APR would be
5.4448% with a rate spread of 1.25%. In his view, HC2
remains a rate spread reportable discriminatory loan
issued to a minority borrower, whereas NHW8 is not
rate spread reportable. Dr. Ayres performs a similar
analysis on loan HC6 and NHW8. Dr. Ayres conducts
a similar analysis regarding loan HC6 and what the
hypothetical APR and rate spread would be without

77a

the lender credits and without the promotional
pricing. He concludes that loan HC6 would have an
APR of 5.9560% with a corresponding rate spread of
1.54%, while loan NHW8 would have an APR of
5.4448% with a corresponding rate spread of 1.25%.
Dr. Siskin rebuts this analysis by stating that “[w]hen
differences are accounted for (i.e., if the minority
borrowers receiving HC2 and HC6 had not chosen
lender credits and the non-Hispanic white borrower’s
loan (NHW8) had been originated when *1377 the
promotion was not in effect), we see a very different
picture. Neither of the loans to the minority borrowers
(HC2 and HC6) are rate-spread reportable, and one of
the minority loans is slightly less expensive by .09
percentage points (HC2) than the non-Hispanic white
loan (NHW8) and one is slightly more expensive by .19
percentage points (HC6) than the non-Hispanic white
loan (NHW8) ... These results do not support a
conclusion that the lower rate spread for NHW8 as
compared to HC6 is due to race (adversely), any more
than we could conclude that the lower rate spread for
HC2 is due to race (favorably).”
II. Legal Standard
[1] [2]Summary judgment is authorized where there
is no genuine issue of material fact. Fed. R. Civ. P.
56(c). The party seeking summary judgment bears the
initial burden of demonstrating the absence of a
genuine issue of material fact. Adickes v. S.H. Kress
& Co., 398 U.S. 144, 157, 90 S.Ct. 1598, 26 L.Ed.2d
142 (1970). The party opposing the motion for
summary judgment may not simply rest upon mere
allegations or denials of the pleadings; the non-

78a

moving party must establish the essential elements of
its case on which it will bear the burden of proof at
trial. Celotex Corp. v. Catrett, 477 U.S. 317, 106 S.Ct.
2548, 91 L.Ed.2d 265 (1986); Matsushita Elec. Indus.
Co. v. Zenith Radio Corp., 475 U.S. 574, 106 S.Ct.
1348, 89 L.Ed.2d 538 (1986). The non-movant must
present more than a scintilla of evidence in support of
the non-movant’s position. A jury must be able
reasonably to find for the non-movant. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 254, 106 S.Ct. 2505,
91 L.Ed.2d 202 (1986).
III. Legal Analysis
The Court has defined the Fair Housing Act’s
limitation period as June 12, 2012 through June 12,
2014. To survive summary judgment, the record
evidence must show a violation of the Fair Housing
Act during the limitations period. The parties
disagree about what actions constitute a violation.
The City’s position is that it can prove a violation by
merely showing differential pricing in a loan to a
minority borrower versus a white borrower. Wells
Fargo adds that to prove a violation of the Fair
Housing Act, the City must make a prima facie
showing of disparate impact discrimination or
disparate treatment (i.e., intentional discrimination).
In City of Los Angeles v. Wells Fargo & Co., No. 13CV-09007, 2015 WL 4398858 (C.D. Ca. July 17, 2015),
aff’d City of Los Angeles v. Wells Fargo & Co., 691 F.
App’x 453 (9th Cir. 2017), the district court analyzed
whether the city could establish a prima facie case for
disparate impact liability to determine whether any
violation occurred during the limitations period. This

79a

Court, likewise, will examine whether the City can
establish a prima facie case of disparate impact or
intentional discrimination to determine if there is a
violation of the Fair Housing Act. It is not simply
enough to show that one loan is more expensive than
another, rather there has to be a violation of the Fair
Housing Act.
The purpose of the Fair Housing Act is to “provide
within constitutional limitations, for fair housing
throughout the United States.” 42 U.S.C. § 3601.
Section 3605(5) of the Act provides:
It shall be unlawful for any person or
other entity whose business includes
engaging
in
real
estate-related
transactions to discriminate against any
person in making available such a
transaction, or in the terms or conditions
of such a transaction, because of race,
color, religion, sex handicap, familial
status, or national origin.
42 U.S.C. § 3605(a); see also 42 U.S.C. § 3604(b)
(prohibiting discrimination in the “sale or rental of a
dwelling.”). A plaintiff can bring a claim under the Act
under two different theories: disparate treatment or
disparate impact. In a disparate treatment case, the
plaintiff must establish “that the defendant had a
discriminatory intent or motive,” while in a disparate
impact case, the plaintiff challenges a practice or
policy that has a “disproportionately adverse effect on
minorities, and are otherwise unjustified by a
legitimate rationale.” Texas Dep’t of Housing &
Comm. Affairs v. Inclusive Communities Project, –––

80a

U.S. ––––, 135 S.Ct. 2507, 2513, 192 L.Ed.2d 514
(2015) (quoting Ricci v. DeStefano, 557 U.S. 557, 577,
129 S.Ct. 2658, 174 L.Ed.2d 490 (2009) ).
The core issue for this phase of the litigation is
whether Wells Fargo violated the Fair Housing Act
during the limitations period. 42 U.S.C. §
3613(a)(1)(A) (stating that any claim under the Act
must be brought within two years of “the occurrence
or the termination of an alleged discriminatory
housing practice....”). If that occurred, then the
continuing violations doctrine allows the City to sue
for conduct that occurred outside the limitations
period. Havens Realty Corp. v. Coleman, 455 U.S. 363,
380-81, 102 S.Ct. 1114, 71 L.Ed.2d 214 (1982) (“where
a plaintiff, pursuant to the Fair Housing Act,
challenges not just one incident of conduct violative of
the Act, but an unlawful practice that continues into
the limitations period, the complaint is timely when it
is filed within 180 days of the last asserted occurrence
of that practice.”). A “pattern-or-practice theory of
liability may revive acts outside the statutory period
if those acts are part of a ‘continuing violation.’ ” City
of Los Angeles, 2015 WL 4398858, at *4 (quoting
Havens, 455 U.S. at 380-81, 102 S.Ct. 1114).
A. The effect of the City’s 30(b)(6) representative’s
testimony
The City Manager, the City’s designated 30(b)(6)
corporate representative, conceded during his
deposition that the City could not identify any
“predatory” or “discriminatory” loans in the
limitations period. The City’s designee was unaware
of any information providing a basis for the City’s
allegation that borrowers were or may have been
eligible for “more favorable and less expensive loans.”

81a

Because
the
City,
through
its
corporate
representative, failed to identify any loans made in
the limitations period that violated the Fair Housing
Act, Wells Fargo argues this case is time-barred.
The dual requirements of Rule 30(b)(6) are that the
corporate designee (1) must “testify about facts within
the corporation’s collective knowledge” and (2) “must
also testify about the corporation’s position, beliefs
and opinions,” including its interpretations of
documents and events. QBE Ins., Corp. v. Jorda
Enters., Inc., 277 F.R.D. 676, 689 (S.D. Fla. 2012)
(citing Great Am. Ins. Co. v. Vegas Constr. Co., Inc.,
251 F.R.D. 534, 539 (D. Nev. 2008) ). “[T]he
corporation has a duty to make a good faith,
conscientious effort to designate appropriate persons
and to prepare them to testify fully and nonevasively.... In other words, a corporation is expected
to create an appropriate witness or witnesses from
information reasonably available to it if necessary.”
Id. at 689 (quoting Great Am., 251 F.R.D. at 540). As
a corollary, a corporation “must perform a reasonable
inquiry for information that is reasonably available to
it.” Id.
The City argues this case is procedurally different
from QBE because the 30(b)(6) representative was
deposed months before the expert disclosure cutoff.
Plaintiff argues the interrogatory responses provided
evidence of discrimination, even though the 30(b)(6)
representative from the City had no knowledge of
discriminatory lending. Although the City is correct
that the expert discovery was not imminent when the
Rule 30(b)(6) deponent testified, the City had an
obligation to prepare the City Manager to testify and

82a

advise Defendant of the basis for the lawsuit under
the rule. Moreover, the City’s reliance on conclusory
interrogatory responses does not create sufficient
evidence to negate the testimony of the City’s 30(b)(6)
representative, who indicated the City had no basis
for its claims against Wells Fargo. Id. at 689 (“[A]
corporation cannot point to interrogatory answers in
lieu of producing a live, in-person corporate
representative designee.”).
Therefore, the Court finds the City is bound by the
testimony of its Rule 30(b)(6) representative. Id. at
690 (“[C]orporation which provides a 30(b)(6) designee
who testifies that the corporation does not know the
answers to questions ‘will not be allowed to effectively
change its answers by introducing evidence at trial.’ ”)
(quotations omitted); Wausau Underwriters Ins. Co. v.
Danfoss, LLC, 310 F.R.D. 683, 687 (S.D. Fla. 2015)
(holding that a corporate representative’s “ ‘I don’t
know’ answers” are “deemed fully binding,” and
corporation “may not proffer any testimonial evidence
regarding [its] collective position on the notice topics
contrary to or in addition to what [its Rule 30(b)(6)
designee] answered on [its] behalf.”).
B. Disparate Impact
Even if the Court were to find the City Manager’s
testimony inconsequential, the City would need to
establish a prima facie case of disparate impact or
intentional discrimination (disparate treatment) to
survive summary judgment. To establish a prima
facie case for disparate impact liability under the Act,
a plaintiff must prove the occurrence of certain
outwardly neutral policies and a disproportionately
adverse impact on persons of a particular class caused

83a

by the defendant’s facially neutral practices. City of
Los Angeles, 2015 WL 4398858 at *5.
Following Inclusive Communities, the Department of
Housing and Urban Development codified a threepart burden-shifting test for disparate impact claims
under the Act. See Implementation of the Fair
Housing Act’s Discriminatory Effects Standard, 78
Fed. Reg. 11460-01 (Feb. 15, 2013). First, the plaintiff
“bears the burden of proving its prima facie case that
a practice results in, or would predictably result in, a
discriminatory effect on the basis of a protected
characteristic.” Id. at 11460. If the plaintiff can make
a prima facie showing, the burden shifts to the
defendant “to prove that the challenged practice is
necessary to achieve one or more of its substantial,
legitimate, nondiscriminatory interests.” Id. “If the
respondent or defendant satisfies this burden, then
the charging party or plaintiff may still establish
liability by proving that the substantial, legitimate,
nondiscriminatory interest could be served by a
practice that has a less discriminatory effect.” Id.; see
also City of Miami v. Wells Fargo & Co., No. 13-24508CIV-DIMITROULEAS, 2016 WL 1156882, at *4
(stating a plaintiff must “(1) show statisticallyimbalanced lending patterns which adversely impact
a minority group; (2) identify a facially-neutral policy
used by Defendants; (3) allege that such policy was
‘artificial, arbitrary, and unnecessary;’ and (4) provide
factual allegations that meet the ‘robust causality
requirement’ linking the challenged neutral policy to
a specific adverse racial or ethnic disparity.”) (quoting
Inclusive Communities, 135 S.Ct. at 2522-24).

84a

Inclusive Communities further instructs this Court to
examine the Plaintiff’s prima facie showing “with
care” using “cautionary standards.” Inclusive
Communities, 135 S.Ct. at 2523-2524. The Supreme
Court cautioned against imposing liability “based
solely on a showing of statistical disparity.” Id. at
2522. The Court explained that if a plaintiff relies on
a statistical disparity, the claim “must fail if the
plaintiff cannot point to a defendant’s policy or policies
causing that disparity.” Id. at 2523. Additionally, a
plaintiff must prove a “robust causality” between the
policy and the statistical disparity to ensure “that
[r]acial imbalance ... does not, without more, establish
a prima facie case of disparate impact,” and that
defendants are not found liable for racial disparities
they did not create.” Id. (quoting Wards Cove Packing
Co. v. Atonio, 490 U.S. 642, 653, 109 S.Ct. 2115, 104
L.Ed.2d 733 (1989) ). The Supreme Court later added
in City of Miami, 137 S.Ct. at 1306, that proximate
cause under the Fair Housing Act requires “some
direct relation between the injury asserted and the
injurious conduct alleged.” (quoting Holmes v.
Securities Investor Protection Corp., 503 U.S. 258, 268,
112 S.Ct. 1311, 117 L.Ed.2d 532 (1992) ).
“[F]oreseeability alone does not ensure the close
connection that proximate cause requires.” Id. at
1306.
1. Prima Facie Case
To state a claim for disparate impact, the City must
identify a race neutral policy that when applied
uniformly causes a disparate impact on minorities.
The City identifies Wells Fargo’s Product Validation

85a

Process as a policy that causes a disparate impact.4
That process examines borrowers to determine if they
are eligible for less expensive loans. Another practice
identified by the City is Wells Fargo’s practice of
allowing lender credits on certain FHA loans, which
the City contends were a vehicle for differential
pricing.
The City relies on the declaration of Alvaro Orozco to
support its claim that race-neutral policies cause a
disparate impact on minorities. Orozco is a former
employee of Wells Fargo, who did not work within the
City of Miami Gardens and who only worked at Wells
Fargo for 46 days over two years before the limitations
period began. The Court granted Wells Fargo’s motion
to strike the declaration of Alvaro Orozco for these
reasons. Even if this Court found the testimony of
Alvaro Orozco should remain on the record, his
testimony clearly does not suffice to convince a
reasonable jury. In any event, the City also falls short
of meeting the other prongs of a prima facie case of
disparate impact. There is no evidence of a statistical
disparity, let alone evidence of the robust causation
needed to show the policy caused the statistical
disparity.
The evidence shows Wells Fargo issued 153 loans
during the limitations period. Of the 153 loans, 130 of
them were to minority borrowers and 8 loans were
made to non-Hispanic white borrowers. There are only
two loans that the City is alleging were at a higher
cost to minorities. Two loans, even assuming they
were more expensive, is insufficient record evidence to
show the policies produced “statistically-imbalanced
lending patterns.” Accordingly, the Court finds the

86a

City fails to show a violation of the Fair Housing Act
during the limitations period under a disparate
impact theory.
C. Intentional Discrimination or Disparate
Treatment in the Credit Context
The City rests its claim of intentional discrimination
(disparate treatment) on two “matched pairs,”
comparing two loans to minority borrowers with one
loan to a white borrower. In his supplementary report,
Dr. Ayres concludes that “Wells Fargo issued some
loans to minority borrowers that were more expensive
than loans made by Wells Fargo to non-Hispanic
white borrowers with similar characteristics during
the limitations period.” Supplemental Ayres Report at
¶ 24.
1. Prima Facie Case
The Eleventh Circuit in Boykin v. Bank of Am. Corp.,
162 F. App’x 837, 839 (11th Cir. 2005) established the
standard for comparing minority and non-minority
borrowers with “loan details” that are “nearly
identical.” Boykin followed the now-familiar
framework of McDonnell Douglas Corp. v. Green, 411
U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668 (1973) to
evaluate the claim of discrimination under the Fair
Housing Act. See also Sec’y, U.S. Dep’t of Hous. &
Urban Dev. v. Blackwell, 908 F.2d 864, 870 (11th Cir.
1990).
“[T]he elements of a prima facie case are flexible and
should be tailored on a case-by-case basis, to differing
factual circumstances.” Fitzpatrick v. City of Atlanta,
2 F.3d 1112, 1123 (11th Cir. 1993) (quotations

87a

omitted). In this credit discrimination context, the
City can establish a prima facie case of discrimination
by offering evidence showing: (1) that the borrower is
a member of a protected class; (2) that the borrower
applied for and was qualified for a loan from the
defendant; (3) that the loan offered by the defendant
was on more unfavorable terms than a loan to an
applicant outside the borrower’s protected class with
similar qualifications.
To meet the comparability requirements of the prima
facie case, the City must show that the borrower is
“similarly situated in all relevant aspects to the nonminority” comparator. Boykin, 162 F. App’x at 839
(quoting Silvera v. Orange County Sch. Bd., 244 F.3d
1253, 1259 (11th Cir. 2001) ). Comparators must be
“nearly identical.” Id. The Eleventh Circuit in Boykin
emphasized that a “comparator’s credit qualifications
and loan details must be ‘nearly identical’ ... in order
to prevent this court from second guessing the bank’s
business decision and confusing apples with oranges.”
Id. (quoting Cooley v. Sterling Bank, 280 F.Supp.2d
1331, 1340 (M.D. Ala. 2003), aff’d, No. 03-14727, 116
F. App’x 242 (11th Cir. July 16, 2004) ).
a. Evidence of Comparators
Defendant hinges its motion for summary judgment
on the City’s failure to show that the “matched pairs”
are nearly identical. The City opposes summary
judgment arguing it has shown evidence of the
borrowers’ financial background, which differentiates
this case from Boykin. In this case, the City’s expert,
Dr. Ayres, matches two pairs of loans to make a prima
facie case.

88a

The first “matched pair” is loan HC6 and loan NHW8,
which are both FHA *1382 purchase loans. HC6 is a
loan to an African-American borrower, whose FICO
score is 741, the loan-to-value ratio is 98%, and the
debt-to-income ratio is 43%. The white borrower of
loan NHW8 has a FICO score of 702, the same loanto-value ratio of 98%, and a debt-to-income ratio of
41%. The rate spread on loan HC6 (1.58%) is higher
than NHW8 (1.12%), which Dr. Ayres concludes
makes HC6 a more expensive loan.
The other matched pair, HC2 and NHW8, are also
both FHA purchase loans. The Hispanic borrower of
HC2 had a FICO score of 712, as compared to NHW8’s
borrower, who had a FICO score of 702. Both had the
same loan-to-value ratio of 98%. HC2’s borrower had
a debt-to-income ratio of 47%, while NHW8’s borrower
had a lower ratio of 41%. HC2 has a rate spread of
2.03%, where NHW8’s rate spread is 1.12%. The City’s
position is that HC2 was a higher cost loan that
suffered delinquencies.
Defendant’s expert, Dr. Bernard Siskin, explains that
HC6 and HC2 have a higher rate spread because those
borrowers elected to receive lender credits to defray
closing costs, in exchange for a higher APR. A second
reason is that the borrower on NHW8 received a
promotional 50 basis point pricing discount, which
Wells Fargo gave to all loans originating during a
particular two-week period. Wells Fargo Vice
President, Jill Hunt, testifies that HC6’s borrower
received $1,878 in lender credits and HC2’s borrower
received $8,000 in lender credits. Defendant’s position
is that the lender credits increased the APR’s on HC6

89a

and HC2, while the promotional discount and the
lower lender credits reduced it on loan NHW8. In his
supplemental report, Dr. Ayres states that even if the
lender credits on these loans were the same, HC6 and
HC2 would still be more expensive.5
It is undisputed that loan HC2, which obtained the
highest amount of lender credits of $8,000, also had
the highest rate spread of 2.03%. Loan HC6, which
had $1,878 in lender credits had a lower rate spread
of 1.58%. Loan NHW8, which had $479 in lender
credits and was eligible for a promotional discount due
to its origination date, had the lowest rate spread of
1.12%. This evidence shows that the loan with the
highest lender credits had the highest rate spread,
while the loan with the lowest lender credits and the
promotional discount had the lowest rate spread.
b. Does the evidence meet the comparability
standard?
Unlike Boykin where the record was deficient to
compare the credit qualifications of the borrowers, the
Court agrees with the City that this record provides
evidence of the similar characteristics of the
borrowers on these loans, like credit scores, loan-tovalue ratios, and debt-to-income ratios.6 Boykin,
however, also specifies that the “loan details must be
nearly identical.” Boykin, 162 F. App’x at 839-840. The
Bureau of Consumer Financial Protection has
explained that “comparisons between loans with and
without lender credits [are] misleading” because “the
prices of loans with such offsetting credits would
appear artificially high.” 80 Fed. Reg. 66128; 66213
(2015); Final Rule at 66,213. Recognizing the same

90a

concept, the Eleventh Circuit has explained that
comparators are not “ ‘early identical’ ” if they had
different “costs ... of their loans.” Boykin, 162 F. App’x
at 840.
There is no factual dispute that the “loan details”
between the minority and non-minority borrowers in
these two circumstances are not “nearly identical.”
The minority borrowers opted to receive a higher rate
of interest in exchange for lender credits ($1,878 and
$8,000) to defray closing costs, while the non-minority
borrower of loan NHW8 only received $479 as a credit
to close, in addition to receiving a promotional
discount.7 The loans originated at different times, and
the borrowers elected different structures to either
finance closing costs over time or pay them at the
outset. These variations are sufficient for the Court to
find that the comparator loans are not nearly
identical. The Boykin standard requires this Court to
end the inquiry and find the comparisons the City
offers cannot support a claim of discrimination. The
Court will not consider Dr. Ayres’s efforts to
extrapolate what the APR would be on HC2 and HC6
without the lender credits. That is simply a term of
the loan that this Court cannot ignore and renders
these loans “apples and oranges” that cannot be
compared by a jury. Boykin, 162 F. App’x at 839
(explaining that comparing nearly identical loans is
necessary to “prevent this Court from second guessing
the bank’s business decision and confusing apples
with oranges.”).
Aside from the lack of suitable comparators, the City’s
argument that the Defendant failed to meet its
summary judgment burden fails. The City makes

91a

much of Dr. Siskin’s failure to connect the numerical
relationship between a lender credit and the impact
on APR. It is well-established that receiving money
upfront at closing in the form of a lender credit
equates with an increased interest rate. In fact, the
Department of Housing and Urban Development
describes options that “permit a borrower to pay a
slightly higher interest rate in exchange for the lender
paying the borrower’s closing costs” as having “been
very successful and are acceptable to HUD.” Dep’t of
Hous. & Urban Dev., Mortgagee Letter 94-7 (Feb. 2,
1994).8 Even if Dr. Siskin’s testimony failed to make
the numerical connection, this Court cannot find that
the City is able to make its prima facie case by
showing that the “matched pairs” are “nearly
identical” as required by Boykin.
Even if the City could make a prima facie case of
discrimination, the burden then shifts to Wells Fargo
to show legitimate nondiscriminatory reasons
motivated the different pricing. Wells Fargo has
offered the loan origination dates, the lender credits,
and promotional pricing on loan NHW8 as legitimate
nondiscriminatory reasons that motivated the
different pricing. Once the Defendant proffers
legitimate nondiscriminatory reasons, Boykin then
places on the City “the ultimate burden of establishing
by a preponderance of the evidence that a
discriminatory intent motivated the [lender’s] action.”
Id. (quoting Perryman v. Johnson Products Co., 698
F.2d 1138, 1142 (11th Cir. 1983) ).
Dr. Ayres does not conclude that his analysis shows
discrimination, nor does he state the differences are
caused by the borrowers’ race. Rather, he concludes

92a

that “Wells Fargo issued some loans to minority
borrowers that were more expensive than loans made
by Wells Fargo to non-Hispanic white borrowers with
similar characteristics during the limitations period.”
The law, however, requires the City to have evidence
that the differential pricing is caused by race, and not
by the reasons proffered—lender credits, promotional
pricing, and timing. In addition, Dr. Ayres admits his
assignment was limited to determine only whether
Wells Fargo “had issued any loans to minority
borrowers that were more expensive than loans made
by Wells Fargo to non-Hispanic white borrowers with
similar characteristics.” Supplemental Ayres Report
at ¶ 23. Dr. Ayres does not dispute that his method of
comparison also reveals situations in which Wells
Fargo originated loans to minority borrowers that
were less expensive than loans issued to white
borrowers. He states: “The fact that Wells Fargo may
have also issued some loans to minority borrowers
that were priced lower than loans made to nonHispanic white borrowers with similar characteristics
does not contradict my findings.” Id. His method
shows that in certain instances both minorities and
non-minorities might have advantageous or
disadvantageous pricing. The racial differences here
can point in both directions, and therefore it cannot be
said that the difference is caused by race. Accordingly,
the Court grants the motion for summary judgment
finding even if the City could state a prima facie case
by providing “nearly identical” comparators, the City
ultimately cannot carry its burden to show by a
preponderance of the evidence that Wells Fargo’s
reasons for the price differentials were mere pretext
for discrimination.

93a

Because the Court finds the City has failed to make a
prima facie case for a Fair Housing Act violation in the
limitations period, the Court need not decide whether
the City’s failure to show an injury in the limitations
period requires summary judgment.
DONE AND ORDERED in Chambers at Miami,
Florida, this 29th of June 2018.
Footnotes
In ruling on summary judgment, the Court is
mindful of the Supreme Court’s statement: “In the
context of the FHA, foreseeability alone does not
ensure the close connection that proximate cause
requires. The housing market is interconnected with
economic and social life. A violation of the FHA may,
therefore, ‘be expected to cause ripples of harm to flow’
far beyond the defendant’s misconduct. Nothing in the
statute suggests that Congress intended to provide a
remedy wherever those ripples travel. And
entertaining suits to recover damages for any
foreseeable result of an FHA violation would risk
‘massive and complex damages litigation.’ ” City of
Miami, 137 S.Ct. at 1306 (quoting Associated Gen.
Contractors of Cal., Inc. v. Carpenters, 459 U.S. 519,
534, 103 S.Ct. 897, 74 L.Ed.2d 723 (1983) ).
1

At oral argument before Magistrate Judge
O’Sullivan, the Plaintiff’s counsel conceded that none
of the loans at issue are inherently predatory. (D.E.
166, Hr’g Tr. at 70).
2

94a

Wells Fargo argues this lack of knowledge is
detrimental to the City’s case.
3

The Product Validation process requires Wells
Fargo’s finance department to review every FHA
purchase loan to determine whether an equivalent
and available conventional loan might be more
financially beneficial to the borrower. In this case,
however, the City does not claim that the borrowers
who received FHA purchase loans should have
received conventional loans.
4

Both sides hypothesize what the rate spread
would be without the lender credits and without the
promotional pricing. While Dr. Ayres concludes that
HC2 and HC6 would still be rate spread reportable,
Dr. Siskin concludes they would not be.
5

In so stating, the Court is not necessarily
finding the borrowers have sufficiently similar
characteristics to render them comparators. There are
differences in credit scores, debt-to-income ratios, and,
of course, timing, which are factors that all affect the
pricing of a loan. Because the Court finds the loan
terms are not nearly identical, the Court need not
address whether the borrowers’ credit qualifications
are sufficiently similar.
6

The record also suggests that the mortgage
insurance premiums on these loans were at different
rates, which is another factor that differentiates the
loans.
7

95a

The
letter
can
be
found
at
https://www.hud.gov/sites/documents/DOC_36143.TX
T
8

